<html>
<title> - [H.A.S.C. No. 111-123] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 111-123]
 
                                HEARING
                                   ON
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2011
                                  AND
              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

          BUDGET REQUEST FROM THE DEPARTMENT OF THE AIR FORCE

                               __________

                              HEARING HELD

                           FEBRUARY 23, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
58-102                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1c7b6c735c7f696f687479706c327f737132">[email&#160;protected]</a>  
                                     
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
                Lynn Williams, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, February 23, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Air Force......................................................     1

Appendix:

Tuesday, February 23, 2010.......................................    45
                              ----------                              

                       TUESDAY, FEBRUARY 23, 2010
  FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                  FROM THE DEPARTMENT OF THE AIR FORCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Donley, Hon. Michael B., Secretary of the Air Force..............     4
Schwartz, Gen. Norton A., USAF, Chief of Staff, U.S. Air Force...     5

                                APPENDIX

Prepared Statements:

    Skelton, Hon. Ike............................................    49
    Donley, Hon. Michael B., joint with Gen. Norton A. Schwartz..    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bishop...................................................    73
    Mr. Conaway..................................................    74
    Mrs. Davis...................................................    73
    Mr. Lamborn..................................................    74
    Mr. Langevin.................................................    73
    Mr. LoBiondo.................................................    73

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................    81
    Ms. Bordallo.................................................    84
    Mr. Bright...................................................    87
    Mr. Lamborn..................................................    85
    Mrs. McMorris Rodgers........................................    83
    Mr. Miller...................................................    77
    Mr. Turner...................................................    82
    Mr. Wilson...................................................    80

  FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                  FROM THE DEPARTMENT OF THE AIR FORCE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Tuesday, February 23, 2010.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today the House Armed Services 
Committee meets to receive testimony on the fiscal year 2011 
budget request of the United States Air Force. Our witnesses 
today are the Honorable Michael Donley, Secretary of the Air 
Force, and General Norton Schwartz, Chief of Staff of the Air 
Force.
    Thank you both for appearing. And let me take this 
opportunity also to thank those you lead: the Active Duty, 
Reserves, the Air Guard personnel as well as the Air Force 
civilians.
    Every day, the Air Force flies in excess of 200 sorties a 
day in Iraq and Afghanistan, totaling over 570,000 sorties 
since September 11, 2001.
    In addition, about 29,000 personnel are currently deployed 
to Iraq and Afghanistan, including over 4,000 serving on the 
Joint Expeditionary Task billets; that is, in nontraditional 
billets often outside the wire.
    This continues to be an exceptionally busy Air Force and 
one that is contributing greatly to the current joint fight, 
and we are proud of them. To support this level of activity, 
the Administration has requested a $5.3 billion increase over 
last year's base budget level. This would support a 1.4 percent 
across-the-board military and civilian pay raise and support 
the Air Force's continued focus on providing support to 
military families.
    As someone who has often commented that if Mama ain't 
happy, no one is happy, I strongly approve of the continued 
emphasis on personnel and family issues.
    Nonetheless, there are aspects of this budget request that 
cause me concern. For starters, I see we are back to square one 
on building a new bomber. Two years ago, Secretary Gates gave 
his blessing for the Air Force to begin a new, well-thought-out 
bomb program. As I understand the direction now is to 
reconsider where to go with this program, going back to first 
principles. I find this somewhat confusing as these issues were 
recently studied in-depth over a five-year period, and I hope 
that our witnesses today will explain to us why redoing this 
study is a good use of our taxpayer dollars.
    Our national security will continue to require bombing 
capability, and the smart design engineering workforce, a 
national treasure, frankly, in my opinion, should not be lost.
    I also want to discuss the F-136 alternate engine issue. We 
have long funded the development of an alternate engine for the 
Joint Strike Fighter [JSF] as an insurance policy for our 
national security. Twenty-five years from now, the F-35 will 
comprise 95 percent of all U.S. fighter aircraft. It seems to 
me that relying simply on one engine means accepting a 
potential single source of failure. The Secretary of Defense 
promised us, starting February 1, that he would provide us the 
analysis on this year's decision. We have still not received 
this analysis. We do remain deeply concerned about receiving it 
quickly. I would hope that you would see to that.
    I also have questions about the status of the F-35 program 
more generally. This is a critical program for us, as well as 
for our allies. The three recent reviews of the F-35 program 
have challenged the current development schedule, cost 
increases of the F-135 engine, the future production schedule 
given us. I would ask our witnesses to help us understand how 
we can stay on target for our 2013 initial operating capability 
and, in the absence of full testing, why the Air Force wants to 
buy 23 in 2011, an increase from 13 in 2010.
    Now, I might say there are many other issues that I hope we 
can get into during our questioning, including our strike 
fighter force structure requirements, cyberattacks, and defense 
future plans for light attack aircraft, to name a few. In 
addition I will say I am pleased that the OSD [Office of the 
Secretary of Defense] and the Air Force will soon be issuing 
the final request for proposal for our next tanker. We hope we 
can get that behind us. We must get a new tanker contract award 
and start replacing current planes just as soon as possible.
    I turn to my good friend the ranking gentleman from 
California, Mr. McKeon.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 49.]

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Secretary Donley, General Schwartz, it is good to have you 
with us here today. We appreciate all you do, and we are truly 
grateful that we have men with your leadership ability sitting 
where you are.
    Gentlemen, I want to take a minute to applaud both of you 
for your remarks at the recent Institute for Foreign Policy 
Analysis [IFPA] conference. General Schwartz, at that event you 
acknowledged that the Air Force has had a short-term and 
somewhat narrow, focused, fix-it sort of perspective. I agree 
with you on that point, and I also agree that it is not good 
for the long-term health of the institution.
    Secretary Donley, I believe you were also on the right 
track when you said that the Air Force needs to remain vigilant 
in tying your work to the National Security Strategy, the QDR 
[Quadrennial Defense Review], and the larger national security 
community. I would caveat that by saying that your efforts will 
only prove successful if the National Security Strategy and the 
QDR provide appropriate guidance.
    As you all know, we recently had Secretary Gates, Admiral 
Mullen and Secretary Flournoy before this committee, and many 
of our members, Republican and Democrat alike, expressed 
concern that the 2010 QDR and the fiscal year 2011 budget are 
overly focused on the short-term and fail to adequately address 
strategic risks.
    I strongly believe that if we are to be successful in 
providing for a military that is ready and capable of 
responding to a broad array of challenges, we must take care 
that we don't shape our forces for the counterinsurgency 
battles of Iraq and Afghanistan at the expense of conventional 
defense capabilities. We can only address both of these 
challenges to our national security with clear strategic 
guidance and commitment of appropriate resources. I am very 
concerned that the QDR and the 2011 budget request provide 
neither.
    The near-term focus of the QDR is very alarming when you 
consider the impact to the Air Force. Decisions to reduce 
fighter force structure, space systems, and missile defense 
capabilities cannot be easily undone. We can't feasibly restart 
production of the F-22s, and we can't field new satellites or 
missile defense systems the way we surged MRAPs [mine resistant 
ambush protected vehicles].
    I would also like to take a moment to express my continued 
opposition to this year's proposed retirement of 250 F-15s, F-
16s, and A-10s. I recently visited with General Roger Brady, 
the commander of the U.S. Air Forces in Europe. He is very 
concerned about the impact of these force reductions on our 
ability to engage and build partnerships with our friends and 
allies in Europe. In his words, our basing and force structure 
is not aligned with our foreign policy. He strongly believes 
that if we take those fighters out of Europe, they will only be 
back to fight the war that they were there to deter. I would 
argue that the same holds true in the Pacific theater. As aptly 
noted in your IFPA remarks, Secretary Donley, ``Presence is 
essential to successful engagement.'' Our capabilities must be 
sufficiently robust and flexible to support a broad range of 
engagement needs.
    I also look forward to your addressing directly the 
President's State of the Union call to repeal Don't Ask, Don't 
Tell. Before the President or special interests force a change 
in the policy or law, Congress deserves to see from the 
services concrete in-depth evidence that such a change would 
improve wartime military readiness in any measurable 
significant way. Many of us on this committee have serious 
concerns with putting our men and women in uniform through such 
a divisive debate while they are fighting two wars. Since 
today's hearing focus limits the amount of time we can spend 
discussing Don't Ask, Don't Tell, I have echoed Mrs. Davis' 
request for you to appear at the Military Personnel 
Subcommittee hearing on this issue March 3. I would hope that 
we could work that out.
    Gentlemen, I look forward to our discussion today and 
hearing more from you on your vision and strategic goals. I 
believe the Air Force is at a critical juncture, one that will 
prove to be historic. We must be wise in the path that we 
choose. And I yield back.
    The Chairman. I thank my friend from California.
    Mr. Secretary, the floor is yours.

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY OF THE AIR FORCE

    Secretary Donley. Thank you, Mr. Chairman, Mr. McKeon, 
members of the committee, it is indeed a pleasure to be here 
today representing almost 680,000 Active Duty, Guard and 
Reserves, and Air Force civilians.
    I am also honored to be here with my partner, General 
Norton Schwartz, who is a phenomenal teammate and a tireless 
public servant.
    Today I am pleased to report that America's Air Force 
continues to make progress in strengthening our contributions 
as part of the joint team and the excellence that is the 
hallmark of our service. We are requesting $150.0 billion in 
our baseline budget and almost $21.0 billion in the overseas 
contingency operations [OCO] supplemental appropriation to 
support this work.
    In the past year in planning for the future, we have 
focused on balancing our resources and risk among four priority 
objectives outlined by Secretary Gates in the recently released 
QDR.
    First, we must prevail in today's wars. Your Air Force 
understands the gravity of the situation in Afghanistan, and as 
we continue to responsibly draw down the forces in Iraq, we are 
committed to rapidly fielding needed capabilities for the joint 
team, such as surging ISR [intelligence, surveillance, and 
reconnaissance] assets into theater and maximizing air mobility 
to accelerate the flow of forces into Afghanistan.
    Secondly, we must prevent and deter conflict across the 
spectrum of warfare. As we await the results of the Nuclear 
Posture Review [NPR] in the new START [Strategic Arms 
Reductions] Treaty, we continue concentrating on the safety, 
security, and sustainment of two legs of the Nation's nuclear 
arsenal. Last year, we stood up Air Force Global Strike 
Command. We have now realigned our ICBM [intercontinental 
ballistic missile] and bomber wings under the control of a 
single commander. We also stood up the Nuclear Weapons Center 
to consolidate the management of all our nuclear weapons' 
sustainment activities. And to increase our engagement across 
the world, we are building partner capacity in Afghanistan and 
Iraq, developing the training framework that emphasizes light 
attack and mobility that can benefit other nations.
    Third, we need to be prepared to defeat adversaries and 
succeed in a wide range of conflicts. We need to ensure that we 
are providing the right capabilities with our strategic airlift 
and ISR platforms and ensure our space-based assets continue to 
deliver needed capabilities for the future.
    In addition, the last two decades of sustained operations 
has strained our weapons systems. We continue to determine 
which aircraft we will modernize and sustain and which we must 
retire and recapitalize. One of our primary efforts includes 
retiring and recapitalizing many of our legacy fighters and 
tankers, replacing them with F-35s and KC-Xs. These decisions 
require tough choices as well as the ability to quickly field 
systems that meet warfighter needs at an affordable price. 
Because acquisition underpins this effort, we are continuing to 
work to recapture excellence in this area. In the past year we 
have made great strides in reforming our internal processes. We 
have added more program executive officers and are growing our 
acquisition workforce by several thousand professionals over 
the over next five years.
    Finally, we must preserve and enhance the all-volunteer 
force. Airmen are our most valuable resource, and they have 
performed superbly in every mission and deployment they have 
undertaken. With the understanding that their families serve 
alongside them, in July of 2009, General Schwartz and I and 
Chief Master Sergeant Jim Roy began a year-long focus on our 
men and women and their families. This Year of the Air Force 
Family recognizes their sacrifices, and it looks to determine 
how we can better support, develop, house, and educate them. We 
are determining which programs are performing well and where we 
can do better.
    It is important to note that each of those areas prevailing 
today, preventing and deterring conflict, preparing for 
tomorrow, preserving the force, are continuing efforts. We know 
that each will require sustained commitment, and we are now 
developing and implementing proactive plans for future success.
    As I noted last year and would reaffirm again, the 
stewardship of the United States Air Force is a responsibility 
that General Schwartz and I take very seriously. We are very 
grateful for the committee's continued support in this journey. 
And we look forward to discussing our proposed program and 
budget.
    Thank you very much.
    The Chairman. Thank you Mr. Secretary.
    General Schwartz, please.
    [The joint prepared statement of Secretary Donley and 
General Schwartz can be found in the Appendix on page 51.]

  STATEMENT OF GEN. NORTON A. SCHWARTZ, USAF, CHIEF OF STAFF, 
                         U.S. AIR FORCE

    General Schwartz. Mr. Chairman, Ranking Member McKeon, 
members of the committee, I am proud to be here today 
representing your Air Force with Secretary Donley.
    Let me begin by reaffirming that the United States Air 
Force is fully committed to effective stewardship of the 
resources that are placed in our trust.
    Guided by integrity, service, and excellence, our core 
values, America's airmen are serving courageously every day 
with precision and reliability on behalf of the American 
people. This budget request supports these airmen in our 
continuing efforts to rebalance the force, make difficult 
decisions on what and how we buy, and sustain our needed 
contributions to the joint team.
    Secretary Donley and I have established five priorities 
shortly after our taking office to ensure our entire force was 
focused on the right objectives. Most of our initial effort 
focused on renewing our commitment to long-established 
standards of excellence. I am pleased to report to you today 
that our committed and talented airmen broadly understood our 
intent and delivered in meaningful fashion. Although these 
initial priorities were not designed to change from year to 
year, our progress with the nuclear enterprise is such that we 
can now shift our efforts to sustain the progress that we have 
made. Thus, our first priority is to continue to strengthen 
excellence in the nuclear enterprise. The rigor of our nuclear 
surety inspections demonstrates a new commitment to the highest 
levels of performance, but we must and we will do even more to 
ensure 100 percent precision and reliability in our nuclear 
operations and logistics 100 percent of the time.
    For our second priority, to partner with our joint and 
coalition team to win today's fight, Secretary Donley mentioned 
several of the ways in which our airmen are providing critical 
air and space power for the joint and coalition team. Your 
airmen are also performing admirably wherever and whenever our 
joint teammates require, including providing battlefield 
medical support and evacuation, ordnance disposal, convoy 
security and much, much more.
    Our third priority remains to develop and care for our 
airmen and their families. As the Secretary indicated, we 
initiated the Year of the Family shortly after our testimony 
last year in recognition of the vital role that our families 
fulfill in mission accomplishment. Although their sacrifice is 
perhaps less conspicuous, contributions--their contributions--
are no less substantial.
    Modernizing our inventories, organizations, and training, 
our fourth priority, is among the most difficult tasks that our 
service has undertaken in these last 18 months. In order to 
achieve the balance that Secretary Gates envisioned for our 
force, we were compelled to action and to decision. The budget 
reflects a continuation of that effort. We set forth on a plan 
last year to accelerate the retirement of some of our older 
fighter aircraft. This year we will not be retiring any 
additional fighters, but we are shifting away from some of our 
oldest and least capable C-130s and C-5s.
    Modernizing where we can and recapitalizing when we must 
will allow us to recapitalize our force scenarios where simple 
modernization is no longer cost-effective. KC-X is one such 
example. Awarding a new aerial refueling aircraft contract 
remains our top acquisition priority, and we hope to deliver an 
RFP within days to get the program underway. A similar 
imperative is the F-35. And I want to underscore Secretary 
Donley's comments by noting that this weapons system will be 
the workhorse driving much of our Air Force and the joint force 
forward.
    Long-Range Strike is the last program that I number among 
our top initiatives. The Air Force fully supports the 
development of a family of systems, providing both penetrating 
and standoff capabilities for the next two to three decades as 
described in the QDR.
    Recapturing acquisition excellence, our final priority, is 
only now beginning to pay dividends with our acquisition 
improvement plan at the heart of the reform effort. While 
promising initial successes must continue for a number of years 
before we can declare victory on this front, we are fully aware 
that we must bring every bit of capability and value that we 
can from the systems that we procure, and this will continue to 
require a sustained focus on acquisition excellence.
    Mr. Chairman, the Air Force will continue to provide our 
best military advice and stewardship, delivering global 
vigilance, reach, and power for the Nation. Thank you for your 
continuing support of the United States Air Force and that of 
the committee, and particularly for our airmen and their 
families. I look forward to your questions, sir.
    [The joint prepared statement of General Schwartz and 
Secretary Donley can be found in the Appendix on page 51.]
    The Chairman. General, thank you very much. We are 
especially proud of what you have done, both you gentlemen, as 
well as the many young men and young women that wear the blue, 
and we hope that you will transmit our appreciation to them.
    In the past, I have asked how many non-Army, non-Marine 
personnel are deployed doing Army type of work in Iraq and 
Afghanistan. Can you enlighten us as to that number today from 
the Air Force?
    General Schwartz. Sir, the number is about 4,700.
    The Chairman. That is down considerably, is it not?
    General Schwartz. As Iraq has subsided in terms of 
strength, so too have our joint expeditionary taskings, sir.
    The Chairman. How goes the recruiting for the Air Force?
    General Schwartz. Sir, we have met our numbers, both 
recruiting and retention, with the singular exception of the 
medical specialty, and thus far this year we have----
    The Chairman. And when you say ``medical specialty,'' are 
you talking about doctors, nurses?
    General Schwartz. Yes, sir.
    The Chairman. The whole gamut?
    General Schwartz. Yes, particularly on the officer side. 
And that is why we have in the budget request this year about 
$135.0 million in requests for incentives and for bonuses with 
respect to making it more attractive for medical professionals 
to come on Active Duty and to remain on Active Duty.
    The Chairman. The F-35, as I mentioned in my opening 
statement, has continued to be a source of questions for me. It 
seems like every year the program is slipping and slipping, 
although you are asking for 23 this coming year. Where is this 
program? Why aren't we ahead of the game on this?
    Secretary Donley. Well, sir, this program has had lots of 
scrutiny. It is the Department of Defense's largest program. 
Within the Air Force, it is our largest single program and by 
itself accounts for 15 or 16 percent of all our investment 
dollars, not our total budget but our investment dollars. And 
we have had a close eye on this program, especially over the 
last couple of years, with independent cost estimates set in 
motion by Dr. Carter, Secretary Gates, and their predecessors, 
so the program is getting great scrutiny. We have identified 
potential slips from independent estimates done at the end of 
2008, and you may recall that the Secretary made an adjustment 
in the F-35 program last year to add about a little over $400.0 
million to development. And so we had a close eye on this last 
year, and we also set in motion new and independent estimates 
to be undertaken at the end of last year. And when those were 
done, those independent estimates showed that we had not 
regained ground that had been projected to be regained, and we 
needed to recognize a slip in the program, and that is the 
source, really, of the restructuring that has been proposed in 
this budget.
    The Chairman. This committee last year successfully wrote a 
bill regarding acquisition reform, and what we wrote actually 
pretty much was what came out of conference with the Senate. Is 
that making any difference with the F-35 program?
    Secretary Donley. I think it has made a difference to the 
extent that the Department has made a strategic decision to 
accept the independent cost estimates that were reported to us 
at the end of the year, so we had to make a significant 
adjustment in the program as a result of that. So we have taken 
onboard what we think are probably the more realistic 
estimates. And I think that is a reflection of the same kind of 
emphasis that the committee put in its bill.
    The Chairman. I hope we can finally say, ``Let's get on 
with it.''
    Secretary Donley. Well, sir, this does represent a slip in 
the program. It will cost us more money to get where we need to 
go, but this is the right thing to do. This program had lots of 
concurrency built in between development and production, and 
the independent estimates showed us that that level of 
concurrency just got to an unsustainable level. So we have 
knocked down the production ramp. We have added dollars back 
into development to complete that work. We have taken other 
risk-reduction measures, consistent I think with the philosophy 
that the committee presented last year, and we are all about 
getting this program on track as quickly as possible. There is 
no diminution of the importance of this program or the emphasis 
that we are putting on its success going forward.
    The Chairman. One last question. As you know, there is a 
major Cyber Command that is in the offing. You have within the 
Air Force, do you not, a Cyber Command? This is my last 
question; then I will ask Mr. McKeon to carry on. But would you 
very briefly describe the Air Force Cyber Command and how it is 
working, please?
    General Schwartz. Sir, we stood up the 24th Air Force, a 
numbered Air Force whose focus is the cyber mission. And there 
are two major components of that cyber mission based in San 
Antonio, along with other cyber activities that are in the 
area: The major mission will be to defend the Net--our Nets are 
no longer administrative entities, they in fact are operational 
and command-and-control entities--and secondly, to employ cyber 
in a way that reinforces the Air Force mission. So it is an Air 
Force-focused activity.
    It will be the component command, the Air Force component 
command to the unified or subunified Cyber Command when it is 
established. And it is led by a two-star general officer of 
some reputation.
    The Chairman. I thank you, gentlemen. Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. And thank you again 
for being here. In your personal and professional opinion, do 
you believe the current law prohibiting service by openly gay 
and lesbian personnel should be repealed?
    General Schwartz. Congressman McKeon, in this instance, my 
personal opinion is my professional opinion. The President has 
clearly articulated his intent, and should the law change, the 
Air Force will implement statute and policy faithfully. 
Nonetheless, I am concerned that there is little current 
scholarship on this issue and little current and reliable 
survey data of our airmen and their families. Secretary Gates' 
study effort is therefore essential in my view to thoroughly 
understanding and properly evaluating the associated facts and 
circumstances, the potential implications, the potential 
complications.
    I have two strong convictions on this, sir. One is that 
this is not the time to perturb the force, that is at the 
moment stretched by demands in Iraq and Afghanistan and 
elsewhere, without careful deliberation. And two, should the 
law change, our standards of conduct will continue to apply to 
all airmen.
    Mr. McKeon. Thank you. Secretary Donley, what capabilities 
should the Air Force provide the Nation in the next two to 
three decades?
    Secretary Donley. Sir, I think we are on track to provide a 
full spectrum of Air Force-related capabilities that will be 
needed by the joint warfighter going forward. In the past 
couple of years, the Air Force has identified 12 core functions 
that are essential to the full scope of our responsibilities as 
your Air Force, and they range from mobility to space to cyber 
to ISR to command and control, precision attack, and several 
others. And our task going forward is to balance our 
investments and all those capabilities to ensure that we have 
provided the joint warfighters the maximum capability out of 
the resources made available to our Air Force. So I think we 
are on track to do that.
    We need to make adjustments along the way. We are not 
building the Air Force that was planned to be built 10 years 
ago. We are a different Air Force today. We will be a different 
Air Force in the future. We need to be--we will probably be a 
smaller fighter force structure, for example, but that will be 
a fifth-generation fighter force structure. So we need to get 
to the F-35 and get up that production ramp as soon as we can.
    We are going to have a modern tanker capability that will 
be more capable than the current KC-135 fleet. We are building 
command and control satellites that have much more bandwidths 
and offer much more throughput and security for the joint 
warfighter in command and control in ISR and other areas. So 
just the things that we do for the joint warfighter 
constitute--and all we do is for the joint warfighter, but our 
critical and enabling capabilities, for example, command and 
control, ISR, mobility, which all the joint community uses, is 
over 30 percent, it is over 34 percent of our resources, goes 
into that work. We need to get on with a long-range strike 
capability to replace the legacy bombers that we are operating 
today and to get ahead, stay ahead of evolving threats in that 
area. So these are examples of a full range of capabilities 
that we will need going forward.
    Mr. McKeon. Thank you. I have been concerned in the time 
that I have been in Congress. I have seen us cut the B-2 from 
130 down to 21, and now the F-22s from 750 down to 187. I 
remember a discussion I had with Chairman Dellums 16 years ago: 
``What would be the next bomber?'' And he said, ``Well, we will 
come up with some new one.'' Well, in the last year's budget, 
we cut the work that was being done on the next generation 
long-range bomber, and now it looks like we are starting over 
from scratch. And I am wondering if we might have a 10- to 20-
year lag somewhere in there in our capabilities.
    So you said we are doing the best we can within the budget, 
the resources that are made available to the Air Force. In your 
view, does the President's budget request put us on track to 
get the capabilities? Could we use more top-line money?
    Secretary Donley. I think Secretary Gates has addressed 
this pretty effectively. We do have some growth in the defense 
budget. And there is modest growth depending on how you define 
``inflation'' at this point in fiscal year 2011. Compared to 
the rest of the Federal Government, the national security 
community is getting the attention that it needs this year. 
Over the longer term, it would be best for our--my personnel 
professional view--it would be best for our national security 
community to have modest growth but sustained growth over time. 
Modest but sustained.
    In this business we are the victims, as you appreciate, 
sir, of boom-and-bust cycles. And over the long term, it is 
best to have some modest sustained growth that we can count on 
and that we can plan on for the future.
    Mr. McKeon. I know in the budget it says we have a one 
percent growth this year in the proposed budget, but when you 
look at the numbers--and I look at all the numbers--it doesn't 
look like we have a one percent. And I am not sure that one 
percent is a growth, so I do think that as our major 
responsibility is funding the defense of our Nation. I think 
that that is something that we definitely need to focus on, and 
I think we do need to have more top-line money.
    General Schwartz, as I noted in my opening remarks, I am 
very concerned about the force structure changes we are seeing 
in the Air Force. It is clear that you are taking a risk in an 
attempt to balance requirements with resources. It is important 
that this committee understand your calculus. Can you please 
quantify the level of risk you are taking in each of the 
service core functions, both in the near-term and the out-
years?
    General Schwartz. Congressman, I would characterize that as 
moderate, as moderate risk. That is true with respect to the 
reductions in fighter force structure, which will allow us to 
generate not only some additional resources for missions that 
are in their ascendancy right now, such as intelligence, 
surveillance and reconnaissance, but very importantly--and this 
is not well understood--generate the manpower in a fixed 
manpower pool to man these ascended missions.
    On the airlift side, we now have or will soon have the 
official Mobility Capability and Requirement Study 16, 2016, 
and it is clear that we have some excess capability on the big 
airplane airlift side. And we are proposing in the 2011 program 
to reduce 17 C-5s. I appeal to the committee for your serious 
consideration of those proposals. I understand the angst, but 
the reality is that we need to move forward. And part of moving 
forward to next-generation platforms is not hanging on too long 
to legacy force structure. Part of retooling ourselves to be 
more relevant to the joint team is growing in some areas, 
shrinking modestly in others, which we consider to be a 
moderate risk, sir.
    Mr. McKeon. Looking in the future what would be your 
biggest concern?
    General Schwartz. I think the biggest concern--there are 
two parts to this. One is human capital. If I lose sleep at 
night, it is concern over our ability to recruit and retain the 
kind of people that America needs to do this work, and that is 
a continuing issue. And as you suggested earlier, certainly 
families are a major part of that.
    The second piece is that we have sufficient resources to 
sustain the existing inventory of machines and assets. And as 
you are aware, we have made that clear that we are currently 
sitting, in the base budget, at 62 percent of our sustainment 
requirement, with the overseas contingency supplemental that 
would bring it up to 84. That is lower than I would like to be, 
but again we have worked hard to try to manage risk across the 
entire proposal. But those are the two areas, human capital and 
weapons systems sustainment, that give me the most concern.
    Mr. McKeon. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you Mr. McKeon. We are now under the 
five-minute rule. Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman. Mr. Secretary and 
General, thank you, good to see both of you and thank you for 
joining us today. And let me say that we are proud of the 
service that you render to our country. As we ramp our efforts 
in Afghanistan, the use of airmen to augment certain bombing 
requirements is not expected to go down and most certainly will 
increase in the coming months. And we are seeing how this war 
is advancing in Afghanistan.
    What impact does the augmented mission have on the Air 
Force, specifically on dwell time and training for other Air 
Force missions? And how do the readiness rates for deployment 
units compare to those in stateside? And what impact are those 
readiness rates having on your ability to train airmen when 
they are deployed?
    I was just wondering, I can remember the days when you 
joined the Air Force, you were Air Force. Or if you joined the 
Navy, you were Navy. But now they get a certain training in the 
Air Force or the Navy, but now you are seeing some of these Air 
Force and Navy people getting to do some of the groundwork as 
well. I was also worried about the training, if they are 
getting comparable training, but what is this doing to you and 
what are you doing to improve that? What impact is it having? 
Thank you.
    General Schwartz. Congressman, I will answer at several 
levels. The reality is the country is at war. And if there is a 
demand, if there is a need for us to serve a wartime function, 
we will do so. And I must say, sir, that I don't apologize for 
that here, or with our people, when we talk about this. The 
obligation that we have is to ensure that those folks who are 
doing nontraditional missions are properly trained. And I think 
that we have--we fulfill that obligation properly.
    The numbers, as indicated earlier, have subsided in terms 
of the overall number of troops doing expeditionary taskings. 
Although we will plus-up in Afghanistan about 2,000 people, 
and, along with the 30,000 folks that will surge through the 
late summer of this year, some of those will be nontraditional 
tasks.
    The key thing for us is that as the Army grows its pool to 
its final end-state, and likewise the Marines, we need to make 
sure that this does not become a habit, that as they establish 
their combat support and combat service support in greater 
numbers, that that relieves the Air Force and the Navy of these 
augmentation taskings.
    Last part about readiness. Typically, sir, our deployed 
units are more ready than are the garrison units. This is not a 
surprise. We devote our resources, spares, certainly dollars 
and attention, to those units that are in the area of 
operations. We do our best to maintain readiness in the rear. 
There is impact, I can't deny that. We are not as ready across 
the board on all of our missions as we would be were this a 
peacetime setting. But the truth is that we are prepared to do 
the missions that we are on call to do now. We are training our 
youngsters both in traditional and nontraditional skills to 
execute as part of the joint team, and I think the evidence 
is--you have seen it yourself--is they are performing in quite 
a remarkable way.
    Mr. Ortiz. And I just have one last question.
    My concern has been intelligence gathering. And I am just 
wondering--and I realize we are at war, and it is horrible. But 
what efforts--are you getting the right intelligence now? And I 
know it is not easy, especially to get human intelligence in 
that part of the world. Can you give us an idea as to what we 
are trying to do? And maybe you can't say it in here, but maybe 
you can at least elaborate on the intelligence gathering.
    General Schwartz. We have, I think, expanded our capacity 
to gather intelligence in a variety of ways, and perhaps the 
most visible way from the Air Force point of view is our 
remotely piloted aircraft. Our teammates on the ground, 
including our battlefield airmen, won't go around a corner or 
through a window or a door without the situation awareness that 
our remotely piloted aircraft provide from above. That is 
intelligence. That is real-time intelligence.
    What you speak of in terms of understanding the terrain and 
the culture and so on and so forth, vital as well. That is more 
applicable, arguably, to the ground forces perhaps than it is 
to the Air Force, but we have found that our needs for intel 
support to the current fight are adequately filled.
    The Chairman. I thank the gentleman. Mr. Bartlett.
    Mr. Bartlett. Thank you both for your service. Earlier this 
month, the Department of Defense [DOD] submitted a response to 
the congressionally-mandated aircraft investment plan, the Air 
Force inheriting the direct support mission. Can you explain to 
the committee how this new mission fits into your plan? The 
reason I ask is that I have not seen it referenced 
specifically, and I noted that the Joint Cargo Aircraft [JCA] 
isn't referenced either as an asset of the Air Force, and yet 
the report identifies a target for procuring 63 more C-130Js by 
2020.
    A second question. In an environment such as Afghanistan, 
can the current fleet of C-130s meet the Army's need for direct 
support?
    General Schwartz. Congressman Bartlett, we ran a test 
program for direct support in Iraq, which concluded in 
December, for the Army division brigade that was there with two 
C-130 aircraft. They were dedicated to that and we ran this 
test and it was completed successfully. That is demonstrating 
that we have the command and control, the orientation, and the 
capacity to provide direct support should that be what the 
joint force commander requires. We did it in Iraq because 
General McChrystal did not want to run the test at the time in 
Afghanistan.
    So we have a concept of employment, a concept of operations 
for direct support. It will include the C-27 aircraft clearly, 
the purchase of which is 38 aircraft. And in this case, it 
demonstrated that the C-130 can do that mission as well. And 
what we will do is use the platform that is optimal for the 
particular requirement, whether it is a C-27 or C-130, and if 
there is a need to provide direct support to ground units, 
ground formations, the United States Air Force is prepared to 
do that.
    Mr. Bartlett. Isn't it true that we are currently spending 
about $8.0 million a month to lease 22 planes, T-35s, 
Metroliners, Colossus? The Sherpas can't do the job in 
Afghanistan? Due to runway length and width limitations, the C-
130s can't even land. I know that the Joint Cargo Aircraft was 
not a program enthusiastically supported by the Air Force. They 
have little interest in it. It was primarily of interest to the 
Army for reasons that I am having trouble understanding. This 
whole program was given to the Air Force, and they stated they 
didn't want the program. And now I am concerned that since it 
is primarily of interest to the Army, and we obviously can't 
meet our direct support needs because we are leasing all these 
planes, and I don't even see this referenced in the report, you 
can understand my concerns sir.
    General Schwartz. I think the Army was intently interested 
in this because they weren't sure their Air Force would be 
there with them when they needed direct support. That is a 
change. We have demonstrated to our Army brothers and sisters 
as well as others that we will be there. We can do this. We 
will do this if this is the task. And we will do it with a mix 
of platforms, in this case, 27s and 130s.
    But I should mention something, sir. Yes, there are some 
aircraft that are leased, and not by the Air Force but that are 
leased in Afghanistan. But the thing that we have done to 
minimize the need for that is air drop. Our air drop 
requirements have increased sevenfold, and that is how we are 
supporting outlying areas in Afghanistan now, is to do 
precision air drop of supplies: 50 percent is food, 35 percent 
is fuel, some 10 percent is building barrier materiel and such. 
That is the other aspect of this which is truly direct support 
that perhaps isn't seen as such, the air drop.
    Mr. Bartlett. Sir, are you comfortable with the Air Force's 
responsibility for the Joint Cargo Aircraft, whose primary 
interest in it is supporting the Army? Are you comfortable with 
that relationship?
    General Schwartz. Sir, I think not only am I comfortable, 
but I believe General Casey likewise is comfortable. And this 
is a matter of trust. And if you were to ask Ray Odierno today 
about how the test went in Iraq, I think he would tell you that 
we changed people's minds. We are going to do this mission to 
the standard that our teammates expect, sir.
    Mr. Bartlett. This is a good test of jointness. I trust it 
is going as well that you indicate to us that it is going. 
Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you for being 
here, gentlemen.
    Two quick questions and then a third one. First of all, 
General Schwartz, we tried to give you some looser language to 
help you with the retirement of E models. I am not one of those 
who thought having old, non-flying hardware sitting on a tarmac 
somewhere is helpful to the Air Force. Has that helped you? Do 
you need additional language with regard to old E models?
    General Schwartz. It has, sir. And I would again encourage 
the committee to allow us some latitude in managing the fleets. 
And this will be particularly true in 2011 with respect to C-
130s as well as C-5s.
    Dr. Snyder. Any specific language that you think would be 
helpful, particularly with regard to the 130, I would be 
interested in seeing.
    Are you satisfied, General Schwartz, that with regard to C-
130s that the Aviation Modernization Program is on track, where 
you want to be? I know you had six or eight months of 
discussion, but it seems to be back on track. Is that your 
view?
    General Schwartz. For 221 aircraft, I won't kid you, we 
made a proposal not to pursue the Aviation Modernization 
Program for all the C-130s. The Department did accept that 
proposal, so 221 aircraft is fully funded.
    Dr. Snyder. I do want to make a comment. I know, Secretary 
Donley, that your Under Secretary is not with you. She is 
actually here in spirit. Erin is roaming around here somewhere, 
our staff director. I know that Senator Shelby has put a hold 
on her and apparently two other DOD nominations. My own view is 
she has a job here. We love her. We will treat her well. I 
would encourage you all to do what is in the best interest of 
the military and the Air Force and not succumb to any parochial 
threat just to get a nomination through. I think it is shameful 
that is going on. You don't need to make a comment on that, 
Secretary Donley, and you probably would be wise not to.
    I want to get to a specific question with regard to Don't 
Ask, Don't Tell with a little different thought, and this is 
from a legal aspect of things. Secretary Donley, General 
Schwartz, has your legal team kept you up to speed on the fact 
that there is now a split of authority between the circuit 
court of appeals with regard to--it started with an Air Force 
case in the Ninth Circuit, the Witt case. Are you aware that we 
have different standards now in the different circuits of the 
country?
    Secretary Donley. Yes.
    Dr. Snyder. It seems to me that it is going to be a 
problem. Mr. McKeon began his comments--he questioned you, 
General Schwartz, by saying--your opinion about having openly 
gay or lesbian folks serving in the military. Under the 
language of the Witt case in the Ninth Circuit, which includes 
Oregon, Washington, California, and Idaho--and I have talked to 
some of the highest legal authorities within the military and 
the Air Force--you will have openly gay and lesbian members 
serving in the Air Force and the military in the Ninth Circuit. 
It is very clear from the language of that opinion and the 
analysis that has been done by military lawyers that because 
the opinion requires a factual analysis of each case, there 
will be people you will not be able to make the case are 
disruptive to good order and discipline.
    My question, and perhaps more in the spirit of a comment, 
is I don't see how--we have put you in a very difficult 
position. I don't see how it is workable that you can have 
somebody at some point, three months, six months, maybe right 
now, that the leadership at a base has concluded there is 
nothing--we can't make a factual case that this person should 
be out of the military, but if we have them fly to Nashville or 
to Little Rock and they are in a different circuit--because we 
have the First Circuit case, the Cook case, saying, no, we 
defer to the military--that they can be kept there. I don't see 
how that is workable.
    Now, the suggestion I want to make is, and I haven't seen 
this written up, it may well be that as we are going through 
whatever transition we are in, that the military may want to 
consider making the venue for all these cases within the Ninth 
Circuit. Otherwise you are going to have a very difficult 
situation for the military leadership and for individual 
commanders who are trying to enforce this policy. And because 
the Ninth Circuit based their opinion on the Constitution, 
there is no legislative language that the Congress can pass and 
say, well, we are going to correct that language. This is a 
Constitutional right that came out of the Lawrence case out of 
Texas.
    So I don't think you have to respond to that if you don't 
want to, other than do you agree with me that you have a very 
difficult situation since you are going to have two legal 
treatments of perhaps the same person if they got moved from 
state to state?
    Secretary Donley. I will just say that the legal community 
is aware of the differences between the two circuits and is 
assessing all that very carefully.
    Dr. Snyder. I think it is an example where you are 
inheriting this problem. It is a Congressional problem and a 
Constitutional problem. Thank you.
    The Chairman. Thank the gentleman. Very quickly, before we 
call Mr. Thornberry. In last year's defense bill, we required a 
report on the C-27J basing strategy. What is the status of that 
required report?
    Secretary Donley. Sir, I believe the report is on track. I 
don't think there are any--not off the top of my head in terms 
of when the report will be available to the committee, but we 
are proceeding with developing basing criteria for the 
remainder of the JCA fleet that has not yet been built out and 
that has not been already designated to particular locations. I 
believe we have 24 aircraft whose bed-downs have already been 
announced, and we have 12 aircraft remaining, some yet to be 
built, that we need to find bases for. So we have a deliberate 
process underway to make those decisions going forward.
    The Chairman. Thank you very much. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General Schwartz, I want to ask about some kind of longer 
term trends that are affecting the traditional missions of the 
Air Force. One hears sometimes that with the increase in 
unmanned systems that we have too much pilot training 
capability and that the Air Force needs to shed some of that as 
we move towards more UAVs [Unmanned Aerial Vehicles] and 
whatnot. On the other hand, one also hears that flying training 
ranges are becoming more precious as time goes on, that we have 
closed or eliminated pilot training in the past and come to 
regret it and had to reconstitute it in the past.
    I was just wondering how you see this capacity the Air 
Force has for pilot training and whether that should go up, go 
down, stay the same, what is the trend there?
    General Schwartz. First of all, Congressman, the notion 
that you have remotely piloted aircraft, your comment sort of 
implies that there is no or little training involved in 
qualifying those aviators. That certainly is not the case. Now 
we have run test cases, our so-called beta classes, to confirm 
whether they needed to be a full-up undergraduate pilot 
training and credentialed individual. And the evidence from the 
first two classes that are currently out at Creech is probably 
not. But there are adjustments that we need to make in the 
curriculum.
    That is why we did the test, to assure that we--where we 
need to do more, where perhaps we did too much. But there will 
still be a substantial requirement for manned cockpits in our 
Air Force, certainly for the next 25 years, perhaps 50 years. 
And I do not see a need, or I do not see a trend which would 
suggest that we will reduce our undergraduate pilot training 
output.
    Mr. Thornberry. On somewhat of a connected note, the 
information the staff has given us says that we currently have 
6,800 Unmanned Aerial Vehicles. Most of them are the very small 
sorts of things. The Air Force has 600, it says, of the larger 
kind. But there has also been discussion before that somebody 
has got to be the traffic cop here as far as the acquisition 
and also the use of at least a portion of these UAVs. And the 
suggestion has been made that that is an appropriate role for 
the Air Force, but obviously you get pushback from other 
services. What is your view on this?
    General Schwartz. I think we respond to what the joint team 
requires. And I must tell you that I don't personally have a 
lot of time for theological debates over who should do what. 
The question is what is pragmatic, what is the least cost, the 
most effective way to perform a joint mission? And in most 
cases, this can be done through partnering.
    However, I will give you an example of what the Navy and 
the Air Force are doing with respect to Global Hawk. We are 
going to use the same depot. We are going to use the same 
ground control station. We are going to use the same training 
pipeline. So here is an example where Global Hawk for the Navy 
has a unique maritime application. There are certain things 
that we have both in the intelligence and communications area 
on the Air Force side. We will do those things that make sense 
to again minimize cost and maximize effectiveness. But I do not 
think that we should overly focus on ownership. That doesn't 
take us to the right place.
    Mr. Thornberry. Is there something that needs to happen in 
the system to encourage those sorts of working relationships?
    General Schwartz. Not having too much money.
    Mr. Thornberry. Okay, thank you.
    I yield back.
    The Chairman. I thank the gentleman. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and testifying and for 
your work on behalf of our country.
    I want to ask about the alternate engine for F-35, which is 
going to be a major bone of contention, apparently, between the 
DOD and Congress. I am newly now the chairman of the Air and 
Land Subcommittee. And, obviously, I have dealt with this issue 
before, but it has become vastly more important and more in my 
purview.
    I am just frankly puzzled, having poured over a lot of 
documents in the last few weeks. I am puzzled about the DOD 
position on this. I am puzzled that they have the position they 
have, and I am really puzzled that there would be a veto threat 
issued by the Secretary of Defense over this issue. You are 
well aware of the history. I won't walk through it in great 
detail except to say for 10 years, I guess for 11 years 
inconclusive, DOD supported this program, funded it, and moved 
it forward. Then for the last four years, we in Congress have 
continued it after DOD backed off of it.
    But if you are going to get to the point where basically 95 
percent of the Air Force's fighter attack airplanes are F-35s, 
history shows us that relying on one engine puts you in a very, 
very bad spot.
    We have put 14 to 15 years into developing the alternative. 
It certainly is having no more problems than the main engine in 
its development. I am wondering if you can articulate for me 
the argument for why DOD is so adamantly opposed to that.
    One final point, the cost is debatable at this point given 
all of the money that we have put into it. I think the most 
objective way to look at it is it is pretty much a wash what it 
would cost to build it versus the benefits of competition. 
Worst case scenario, maybe it is an extra billion or so on top 
of this program, all of that for the major battle we are 
looking at, we have asked Secretary Gates, and to this point, I 
have not gotten a satisfactory answer that articulates why, why 
is that your position.
    I should ask, first of all, if it is your position. 
Certainly it is the DOD's position. Could you give this 
committee some indication of what on earth the argument is for 
why you are so adamantly opposed to doing this?
    Secretary Donley. A couple of issues, Mr. Smith.
    First of all, we do support the Secretary's view that the 
Department should not be pursuing the second engine. I will say 
up front, this has been one of the most difficult issues that 
we have wrestled with. So we have looked at the analysis on 
this from all sides for many, many months. And in some respects 
it can be regarded as a close call.
    I think I would summarize it this way: It is a close enough 
call that we cannot see right now the benefits of a 
considerable, what we think is still a considerable remaining 
investment that would have to be made in a second engine, the 
logistics tail that goes with it, all of the preproduction 
work, the remaining development which may be understated in 
some quarters, the firm costs that are associated with those 
activities against the soft savings that might be out there in 
the future. We are just--it just looks too cloudy to us, and 
that is the basic rationale that I think we have come down on.
    We did receive in the Air Force the letter that you all 
sent to Secretary Gates on this subject. So the Department is 
gathering up all of the data and the analysis that we have had 
in front of us the last several months, and we are putting that 
back in a communication that will come back to the committee on 
that subject very soon.
    I would only add one other item on this. When we have 
challenges in the F-35 program and in making sure that program 
is adequately funded going forward, this is another rock on top 
of the F-35 program, an additional item.
    Mr. Smith. Two quick points.
    I don't think the savings are particularly soft. The DOD 
has made a very strong case in many other programs about the 
benefits of competition and the way it can motivate a 
contractor, without question.
    Second, just to be in a position, and we learned this with 
the F-15, if you have one engine and something goes wrong with 
that engine, you shut down the whole operation and 95 percent 
of our fleet is grounded because of one engine, that seems like 
a pretty compelling argument to me.
    My last point, I would love to see the analysis that you 
are relying on. That is another frustration for us. We have 
heard a lot about this analysis. The only report we have seen 
out there is a 2008 report that comes down on the other side of 
this. If you have some independent study, some analysis, we 
would love to see it.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    Gentlemen, thank you for being with us.
    Mr. Secretary, I listened to your comments, and this is 
going to lead to my question, I believe this is what you said 
from my notes: ``Must prevail in war; prepare to defeat 
adversaries present and future.''
    I look at this country which in so much financial trouble, 
and I realize that is why this budget situation is the way it 
is and that is not your doing but it is what you have 
inherited. And I look at the fact that we owe the Chinese. The 
Chinese maybe own America. I don't know which now. I have the 
pleasure of having Seymour Johnson Air Force base in my 
district, and we are proud of the Marines and Air Force in our 
district.
    I have occasion over the last few years to ask for 
briefings, not classified. But I am very interested in the 
fact, as one of my colleagues said earlier, we have a 
Constitutional responsibility that we have a strong military. 
This brings me to my question: The Chinese, I have been told, 
this was not from those meetings, I have read it, I think, that 
the Chinese are putting the largest percentage of their GDP 
[Gross Domestic Product] into military investments, especially 
Air Force and Navy. It is my understanding that the Chinese are 
buying one of the most sophisticated fighters being made by 
Russia. I think it is the SU series.
    At what point would you say to this committee, you or 
General Schwartz, that we are in a critical situation of losing 
our supremacy? That the Chinese are at a point where if we 
don't acknowledge and make major investments, that their 
fighter force, not because of our manpower but because of our 
equipment, they will surpass what we have?
    Secretary Donley. Sir, we do track the developments of the 
Chinese military and other militaries around the world. I do 
think we have the appropriate balance in our current program to 
cover both near-term and long-term threats.
    As I indicated, just as one example, the F-35 is the 
largest program in the Department of Defense. The United States 
is, I think, well-positioned on fifth generation fighter 
capabilities in comparison to other militaries around the 
world.
    Are we the only ones that know something about low 
observable technologies? No, we are not the only ones. Are 
there other countries developing these technologies? Yes, there 
are. But I think, I am fairly confident in terms of where we 
stand technology-wise and fifth generation capabilities, and 
that is only one example of longer term, general force 
improvements that we are making that I think should help us 
address potential future threats.
    We still have the bulk of our resources in the Department 
of Defense, though we have much developed and much improved 
capabilities at the lower end of the conflict spectrum which 
you saw in Iraq, and you are seeing today in Afghanistan.
    Mr. Jones. Mr. Secretary, I have about a minute left so let 
me interrupt. I want to ask General Schwartz, as we are sitting 
here today, if the budget situation continues and you are told 
you cannot have a one percent modest growth, five to ten years 
down the road, knowing what the Chinese are spending in their 
Air Force and what they are buying as it relates to their 
fighters, will we be in a situation, General Schwartz, where we 
are in a situation where we might not be where we need to be?
    General Schwartz. It is my professional opinion, as we 
stated earlier, a sustained modest growth profile for the 
Department is essential, certainly with respect to that case 
and others. Clearly, the Department will need to be resourced 
to modernize and to recapitalize in order to have the right 
kind of force structure.
    My only caution to you, sir, is I don't think we should 
look at binary sort of trades. In other words, fighter versus 
fighters, necessarily. I think one needs to look at this in a 
more holistic fashion.
    Mr. Jones. Thank you, sir. Thank you, Mr. Chairman.
    The Chairman. Thank you. The gentlelady from California, 
Mrs. Davis.
    Mrs. Davis. General, you expressed concern in talking about 
recruiting and retention, that we are certain that we are able 
to recruit the most capable individuals, both men and women, to 
support the mission. And yet we know in this economy that our 
budget managers have reduced costs of recruiting and also that 
bonuses have been reduced. Are you able to reprogram that 
quickly if you find that there is a need to change that 
manpower strength in some specific areas? You mentioned 
particularly among medical professionals; but overall, how can 
we do that? We would love to see the economy improve, but it is 
in some ways helping the services.
    General Schwartz. Ma'am, we have about $685.0 million in 
bonuses and retention incentives in the program for 2011. That 
is a substantial amount of money, to be sure. We are fairly 
agile in applying it to where it will produce the best effect.
    It is always difficult to reduce incentives and reduce 
bonuses, but we have to do that in order to be scrupulous about 
this. And so we review this on a continuing basis. If we see 
adverse trends developing, we either take it below threshold or 
come back up to you and ask for reprogramming authority to 
address the need.
    Mrs. Davis. Mr. Secretary, is there any one area that gives 
you the greatest concern? You mentioned the medical profession.
    Secretary Donley. As General Schwartz alluded to, we have a 
number of stressed career fields: contracting, explosive 
ordnance disposal, our terminal air controllers, specialized 
career fields that we do have to watch very carefully.
    I would say, as you alluded to, ma'am, the economy has 
actually been good for the military in the short-term and our 
immediate challenge actually is that we are carrying probably 
more airmen than we thought we would be carrying at this time 
last year. So we are actually over strength and are trying to 
manage that down in moderate numbers in the months ahead. But 
we may need to come back with a reprogramming to increase 
funding for military personnel because we are actually carrying 
a few more airmen than we thought that we would be.
    Mrs. Davis. Thank you. You mentioned the year of the family 
and how important that is. And yet there is a program that has 
been applauded out in the communities, certainly amongst 
spouses, ``My Career Advancement Account,'' which NPR [National 
Public Radio] reported today that they basically put a hold, a 
freeze on that scholarship program. I don't know if that is 
something that you have been apprised of. I think what is 
interesting to me is they have stopped it while they are doing 
an assessment whereas I think there are other programs that we 
have where we don't necessarily do that. It may be very 
appropriate to do the assessment, but I don't know if it is 
appropriate to freeze the program for those people who were 
anticipating that they could benefit from it. If that is not 
something that you are familiar with, I hope you can take a 
look at it. Any comment?
    General Schwartz. Ma'am, it is as has been reported. If you 
will allow us to take that for the record, we will get back to 
you.
    [The information referred to can be found in the Appendix 
beginning on page 73.]
    Mrs. Davis. Thank you.
    On Don't Ask, Don't Tell that has been brought up several 
times this morning, and I do know that we have a hearing on 
March 3. The purpose of that is to examine the implementation 
process. That is, is the sense that is really where we want to 
try to enlist the help and the support of the services to try 
and help us better understand that process. Is that your 
understanding, that it is more about an implementation process 
than necessarily a debate on the issue itself? And how do you 
anticipate, what help and support would you be giving to try 
and make available the kinds of discussions that certainly will 
need to be ensuing within the Air Force, as well as the other 
services?
    General Schwartz. Ma'am, I don't know what the purpose of 
the hearing is. I don't want to insert myself into that. That 
is clearly your reign. What I can assure you is that I 
personally will participate in the Secretary of Defense's study 
effort thoroughly.
    Mrs. Davis. Can I just ask, is this the kind of deliberate 
discussion that you think is appropriate?
    General Schwartz. Yes, ma'am.
    Mrs. Davis. Thank you.
    The Chairman. Thank you. Mr. Wilson from South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman. Thank you, General and 
Secretary for being here today. I particularly appreciate the 
Air Force. My dad served in the Flying Tigers. I am the son of 
an Air Force veteran. I am a veteran myself, Army National 
Guard, and I have four sons serving in the military. But I am 
particularly grateful that I have a nephew who is serving in 
Iraq with the Air Force. So thank you from our family for your 
service.
    There have been many rumors associated with the noise 
impact of F-35 operations on local base communities. Mr. 
Secretary, I have been advised that the noise of the F-35 is in 
the same neighborhood as the aircraft that it replaces, such as 
the F-16, 18, and F-15E. With regard to the Joint Strike 
Fighter [JSF] program, how will encroachment and increased 
noise associated with the fighters impact the decision to base 
these aviation assets? This doesn't apply to you, but I am 
particularly interested in F-35s being located at Buford Marine 
Air Station and the joint air base at McIntyre in South 
Carolina.
    Secretary Donley. Sir, noise has been an issue. But I think 
the more refined analysis represents the Department's latest 
work on this is that the noise levels from F-35 are only 
slightly above the current aircraft. That is my understanding 
at this point.
    Mr. Wilson. And I do appreciate the sound of freedom. I 
have North Airfield in the district that I represent, and the 
people of that community really enjoy when you do your touch 
and gos.
    Secretary Donley, provisions of the fiscal year 2010 
defense authorization bill prohibit the Department of Defense 
from retiring C-5A aircraft until 90 days after the Department 
conducts an operational assessment of the modification of the 
C-5A to the reliability enhancement and reengining program 
configuration, as well as providing a number of certifications 
concerning cost benefits and the risk of the C-5A retirement. 
Will the operational assessment required by law be completed 
and will you provide the required certifications to Congress in 
time for us to reconsider the retirement restrictions in our 
markup of this year's defense authorization bill which is 
currently scheduled for May?
    General Schwartz. The OT&E, Operational Test and Evaluation 
on the C-5 reengining program is complete. The report will be 
available on or about the 15th of March. We intend to offer the 
appropriate certifications through the Secretary's office that 
indicates that it is a viable, effective program and one that 
should allow us, as we spoke of earlier, to begin to act on 
retiring legacy A model aircraft that will not be modified.
    Mr. Wilson. I had the privilege of growing up near 
Charleston Air Force base. I remember when the first C-5A 
landed, and Chairman Mendel Rivers, Mr. Chairman, was there to 
welcome the aircraft.
    General Schwartz, the engine competitions for F-16 saved 
money, improved engine performance, reliability, and contractor 
responsiveness. Today the F-16 program continues to operate 
with two engines. Why wouldn't a similar program be applicable 
to the F-35?
    General Schwartz. Because we are 20 years, 30 years later 
in technological progress on engine design and production. 
Fundamentally, and just to, again, round out Secretary Donley's 
answer earlier, there are a couple of issues with respect to 
alternate engine that I just offer for your consideration. One 
is if this result, if having more engines results in less F-
35s, that is not a good scenario for the Air Force or the 
Department of Defense.
    Secondly, the reality is that the F-22 and the F/A-18E/F 
are single-engine airplanes, and there is no dispute about 
that. It is because we collectively in the defense community, I 
think, have become comfortable with the reliability and so on 
of those respective engines, one of which is the predecessor to 
the F-35.
    Lastly, a concern that I have is the reality is the 
alternate engine is not for anybody else but the Air Force. The 
Navy is not going to operate an alternate engine aboard ship. 
Our European partners are not going to operate two engines. You 
are talking about focusing this on your Air Force, which is 
problematic in my view.
    Mr. Wilson. Thank you very much.
    The Chairman. Thank you. Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman. You caught me by 
surprise.
    Thank you both for your service and your leadership. I 
think you do a great job for our Air Force.
    I was having dinner with former Under Secretary Ray DuBois 
a week or two ago, and he brought up the tanker and asked, 
``Why don't we move forward with taking two bids, producing two 
tankers, do small, relatively small quantities of the two, they 
come online faster, and then we would see which one we liked 
the most and could make decisions concerning future buys based 
on that?'' Could you quickly respond to Secretary DuBois's 
thought?
    Secretary Donley. We have addressed this over a couple of 
years now. The Department's conclusion is that this would be an 
expensive way to proceed. We would rather not have a split buy 
or dual buy in this circumstance. We do plan to award, 
currently our plan is to award the RFP [Request for Proposals] 
to the best offer after the evaluation is done.
    One concern with that approach which I will lay on the 
table is that the Department's estimates are that we will be 
probably buying 15 airplanes for over a decade actually to get 
to 179 aircraft from this buy. If we go forward with two lines, 
the minimum economic order for each line would probably be 
about 12 aircraft. It would be very inefficient to do that, and 
it would bump the annual buy from 15 to 24 aircraft and that is 
a big bump in our budget and it takes a big lump of dollars 
that we would have focused on other Air Force programs, puts it 
on the tanker. I understand the operational and sort of the 
business advantage of buying more, faster and get them cheaper, 
et cetera, but we have to manage this procurement in the 
context of all other things that the Air Force is doing and 
getting up to 24 airplanes each year for a number of years is a 
hard thing for us to do.
    Mr. Marshall. Thank you, Mr. Secretary.
    The alternate engine, again, we are talking about split 
buy, basically, and I don't think it is arguable there are 
significant risk avoidance advantages to doing that in the long 
run. History has shown us that the question is cost. The 2007 
cost analysis improvement group estimated that there would be a 
$1.2 billion in cost on a present value basis, and $2.2 billion 
in savings on a then-year basis. What that typically means is, 
as you would expect, the costs are up front, the savings are 
toward the rear.
    That was done in 2007. We have spent more money, and that 
is current costs we have incurred. My assumption is, as we said 
in the letter, a good chance is that both those numbers are now 
positive based on the assumptions made by that 2007 study. It 
seems to me the only way that can change is if somebody changes 
the assumptions. So it would be very helpful to the committee 
if whenever you get your materials to us, you would say the 
2007 group was making this assumption or that assumption, we 
have changed that assumption and that's why we come up with 
different numbers because that is the only way that the numbers 
really change unless you conclude that they just made a math 
mistake. And that would be very helpful to us. We really are 
troubled by this threat of a veto over a program that we think 
benefits in the long-run national security and net, based on 
the evidence we have, is a savings to go ahead and do it, as 
opposed to a cost.
    Finally, Chief, in your response to Mr. McKeon on Don't 
Ask, Don't Tell, you said it is probably not something we 
should be considering now given our OPTEMPO [operational 
tempo]. I agree with that view. And you said assuming we do 
consider it and we make some changes, and your last statement 
was something to the effect that one standard of combat will 
continue to apply to all airmen. Could you please elaborate 
what you meant by that?
    General Schwartz. Sir, I was just indicating that our 
standard of conduct will apply to all airmen. That is what I 
would expect, and I think that is what you should expect. So we 
will expect performance. Should the law change, we will expect 
performance and conduct consistent with our standards, and we 
will handle it accordingly.
    Mr. Marshall. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Gentlemen, I have good and bad. Let me do the good first. 
General, we spoke on the phone a while ago about the extended 
use lease problems at Falcon Hill and you said you would fix 
it. I want to thank you for doing that. You did. You 
orchestrated a situation where the people went out there, they 
saw those particular problems for moving forward, and I just 
want to thank you very much for following through on that 
issue. I think it is very positive. And just keep the JAG 
[Judge Advocate General's] attorneys away from the issue in the 
future.
    Now for the negative part, and it deals with the warm line 
sustainment program. Minuteman III now has to be maintained to 
2030. It is our only program of record. I noticed in the budget 
for fiscal year 2011, you have $44.0 million for the Minuteman 
III warm line, of which $5.0 million is dedicated to 
unspecified government costs and overhead, so you have $39 
million to buy three motor sets.
    Next year in the 2012, it is down to $34 million, and in 
the 2013 budget, there is nothing. I put that in contrast. I am 
not sure you can actually build three motor sets with that 
amount of money. But the Navy, for example, has 12 motor sets a 
year that they do to keep their warm line going for their D-5, 
and the industry has simply said they need six as a minimum to 
maintain it.
    Now last year when your superiors cancelled KEI [Kinetic 
Energy Interceptor] and stopped the ground base and had no 
followup on ICBM [intercontinental ballistic missile], it made 
a major dent in the industrial base. And obviously AFMC [Air 
Force Materiel Command] has simply said there is no in-house 
capability to sustain these, so I have three questions. The 
first one is, quite frankly, how did you come up with three 
booster motors as the adequate element to sustain the military 
base? Is this simply another budget-driven exercise that does 
not face the reality coming from the industry?
    Number two, you sent over a Defense Department report to 
Congress on the solid-rocket motor industrial base in June of 
last year. I appreciate it. It was a good report. But it said 
delays in NASA's [National Aeronautics and Space 
Administration] Ares program would have a significant negative 
impact on the industrial base, specifically materiel suppliers 
for the military.
    Now, in light of the decision to cancel Ares totally, if 
delay was bad, I am thinking canceling would have to be bad/
bad. In light of that decision, are you going to rethink your 
program as to what you are putting in for the solid-rocket 
motor industrial base and the funding levels that would be 
there?
    And finally, my third one is why doesn't the Air Force 
simply commit to a long-range Minuteman III sustainment program 
in the out-years, and isn't such a commitment now even more 
necessary, especially with what may happen in the space 
exploration program as well?
    Secretary Donley. Mr. Bishop, what I would like to do is 
take the details of your question-for-the-record and so we can 
get back on each point. But I will say that we recognize the 
decisions made on Ares and on the constellation program in 
general in NASA, and we have a challenge on the solid-rocket 
motor industrial base and on the booster industrial base, 
period.
    So we recognize not just the Minuteman challenge going 
forward, but a broader industrial base issue which we are going 
to have to wrestle with this year. So we do not, right now, 
have a long-term solution to that right now in hand.
    [The information referred to can be found in the Appendix 
beginning on page 73.]
    Mr. Bishop. I appreciate that. I think that is the 
substance to all three of those questions that were there. But 
obviously, three motor sets, I don't think, fits the need and 
especially with the budget that is declining to nothing over 
the next three years, that is not a long-range solution.
    I would appreciate if you would rethink those and get back 
with me later. Thank you for your time and for being here.
    By the way, Hill doesn't have a problem with sound 
encroachments for the F-35.
    The Chairman. Thank you. Mr. Courtney, please.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you both your testimony this morning.
    I want to start off with aftermath of the F-22 decision 
last year which was regarding spare engines. It is my 
understanding that the Air Force has a formula for calculating 
how many spare engines would be needed for any program, and we 
are at a point where it appears there are more spares needed 
for the F-22 than available. And given the fact that this 
production line is coming to an end date, obviously there would 
be extra costs for restarting if we had to go that route. Can 
you comment on that?
    General Schwartz. We currently have 54 spare engines in 
inventory, for a requirement of 54 that will grow to 65 as we 
round out production, and our intent is to go to 65. So there 
will be an additional 11 or so engines procured for the spare 
inventory.
    Mr. Courtney. Thank you.
    I want to again go back to the alternate engine discussion 
which has been going on. General, again, you made the point, 
which I think is sometimes overlooked, that sole source engines 
is not some unprecedented deviation from past practice. The F/
A-18 is an example which you cited. We build Sikorsky 
helicopters in Connecticut, and thousands have been built 
without a hitch. So I guess in terms of going forward with the 
sole engine with the F-35, do you feel confident where we are 
right now with the engine that has been awarded that you will 
be able to control costs and provide again an adequate system 
for the needs?
    General Schwartz. Based on what I know now and the analysis 
that I have seen to date, I think it is a manageable risk given 
the other demands we have, and again, my primary concern that 
we don't get engine production out in front of airplane 
production.
    Mr. Courtney. Really, that is at some point in a tight 
budget the trade-off that we are going to be stuck with in 
terms of what the choices are that are involved. Secretary 
Gates again reiterated recommendation of a veto if we do not 
adopt cancellation of the alternate engine program. I think the 
flip side of that is we have to take from some other parts of 
your budget or the defense budget to continue going down that 
path. I look forward to your response to the letter which has 
been requested.
    Real quick on the C-27 program which the Air and National 
Guard in Connecticut is certainly watching closely. I wonder if 
you can indicate whether the Air Force remains committed to the 
full buy of 38 C-27s over the next 5 years?
    General Schwartz. Yes, we are, sir, to 38.
    Mr. Courtney. Previous statements have said that the 38 
would be looked upon as a floor and not the ceiling for the 
program. Is that still the general thinking?
    General Schwartz. At the moment, we are not looking at 
going above 38. That was the assessment through this program 
build. So I think 38 is probably a good, comfortable number for 
all of us.
    Mr. Courtney. Thank you. I yield back, Mr. Chairman.
    The Chairman. Thank you. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here and thank you for your 
service.
    I have three quick comments, and then a question about 
AFIT, the Air Force Institute of Technology, and then I would 
like to get your thoughts on the Airborne Laser [ABL].
    The first three comments, Wright-Patterson Air Force Base 
is in my district. I will be submitting to you a question for 
the record concerning the 445th airlift wing. There had been a 
previous commitment that had been made to the base concerning 
the issue of the C-5s and the C-17s. I will be looking for you 
to reaffirm that earlier commitment that has been made to the 
base, and we will be sending it in your direction.
    General Schwartz. May I say one thing, sir.
    One thing that Secretary Donley and I have tried hard to do 
is not make promises we can't keep. So we might not respond 
immediately to that. If we say yes, we mean yes.
    Mr. Turner. I appreciate that. Actually, I am looking for 
you to keep a promise that has been made, and I hope to have 
your evaluation and review of that promise.
    With respect to NASIC [National Air and Space Intelligence 
Center], we spoke about the correspondence that I sent to you. 
I am very concerned that there is a pending issue that could 
diminish our intelligence capability, and I look forward to 
your response there.
    Also with respect to the civilian conversion from 
contractor personnel issue that is ongoing in the Air Force, I 
am continuing to hear a number of complaints over the process 
of activities that appear to be inappropriate. We tried to 
address this in the committee with some report language in the 
last National Defense Authorization Act [NDAA].
    I will be getting back to you with some specifics as we 
prepare for the next NDAA, and I would like to hear your 
thoughts on how other communities may be experiencing this.
    My two questions, we had a hearing here about the nuclear 
enterprise and the changes and concerns that we have there. We 
continue to look at issues such as cyber and computer science 
issues. The Air Force Institute of Technology [AFIT], as you 
know, happens to excel in the issue of nuclear enterprise and 
also cyber and war-gaming and computer science programs. I 
would be interested in your thoughts on the issue of how you 
see the Air Force Institute of Technology, AFIT, may be able to 
play a greater role as you look to your needs in that area.
    The second is the Airborne Laser. We recently had a success 
I think we should all celebrate with respect to the February 11 
test of the Airborne Laser test bed with the missile shoot-
down. The air force research labs played a key role in the 
early technology development. This test which has been many 
years in the making demonstrated the viability of directed 
energy [DE] technology and the potential capability of an 
Airborne Laser missile defense system.
    Now we all know that funding for the Airborne Laser Test 
Bed has sharply declined with the Obama Administration's shift 
in missile defense policy. I hope this successful test renews 
interest in directed energy technology. With increased DOD 
investment, there is great potential for further innovation, 
technology maturation, and development of a concrete strategy 
that transitions Airborne Laser Test Bed capabilities from the 
lab to the field. I would love your thoughts and your talk 
about the Air Force and its success here and the potential for 
future applications in our national defense. This is one that 
has taken much criticism but had quite a great success. I am 
looking forward to your thoughts there.
    General Schwartz. I will talk about ABL. It was an 
achievement. It was a magnificent technical achievement. But 
the reality, Congressman Turner, is this does not reflect 
something that is operationally viable.
    Mr. Turner. My question is about the next level of 
innovation. Obviously, this is an accomplishment. It is not can 
we replicate this over and over again. We are looking for some 
vision from the Air Force.
    General Schwartz. And that is in the area of solid-state, 
not chemical-based lasers. That is the queen of the realm, sir.
    Secretary Donley. Just to amplify, the Air Force does have 
a directed energy program. It was pretty well-funded. I was 
briefed on it just a month ago. To foot-stomp this point, the 
Airborne Laser has been a tremendously successful program, but 
it is very expensive and it is not necessarily representative 
of the future of the technology. We are looking for lots of 
potential directed energy applications. So one of our tasks 
going forward is to figure out where the directed energy 
program is going at a strategic level, both in terms of the 
technology and the mission sets against which we intend to put 
resources. But we have a robust DE program in the Air Force. 
It's a good one.
    Mr. Turner. And AFIT, your thoughts on AFIT?
    Secretary Donley. Just quickly, AFIT is getting a lot of 
our attention in the growth of our acquisition workforce. The 
chief and I were briefed on the status of the improvements in 
our acquisition Air Force, the growth of the civilian and a 
little bit on the military side, just a couple of days ago. So 
we have increased the numbers of seats and courses available to 
that acquisition workforce that are sponsored by and taught 
through the AFIT system. So it is an important part of the 
fabric of our research and research community.
    The Chairman. Before I call on Ms. Giffords, you have on 
page 17 of the prepared remarks the retirement of 17 C-5As. 
What is the status of that, and what is your request this year?
    General Schwartz. Sir, what we will do is provide the 
required certifications of tests on the C-5M, the reengined 
aircraft that is required. The Secretary of Defense also needs 
to make certifications that he believes it is acceptable to 
retire legacy A model aircraft. When that occurs, we intend to 
execute the 90-day waiting period and begin retirement of those 
aircraft.
    The Chairman. Do you have sufficient C-17s as we speak?
    General Schwartz. As you are aware, we are above the 
required number of aircraft by at least 20, probably more. And 
so it is our view to get down to the proper level, we are in 
good shape in that regard.
    The Chairman. Thank you.
    Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman.
    Good morning Secretary Donley and General Schwartz, and I 
am pleased to have you before us today.
    Normally in the past when given this opportunity, I have 
chosen to spend some time talking about the fighter gap issue 
and what that means to our strategic readiness. But instead, I 
would like to talk about some of the scoping hearings that are 
coming before us in southern Arizona. As you know, the 152nd 
International Fighter Wing has been put on the list as a 
potential site to host the new Joint Strike Fighter, the F-35. 
And we are willing and ready to accept as many as three 
training squadrons in Tucson. I am very excited about the 
prospect of having the F-35 in southern Arizona, but my 
constituents still have numerous questions specifically 
addressing noise levels and flight patterns. I was hoping to 
talk a little bit about that today.
    On February 2, I sent both of you a letter asking for a 
copy of some studies that were conducted at Edwards Air Force 
base to gauge the noise levels of the F-35, and I also asked 
for eight specific data sets that I believe must be released to 
the communities being considered around the country, not just 
in Arizona, these communities that are being considered as F-35 
basing locations before any final decisions are made.
    I received back two sets of charts that I believe are 
conclusive, and I would like to put them up on the screen now. 
We have the first one. It is labeled ``Measured Worst Case 
Aircraft Sounds Levels at 50 Feet.'' I was hoping you could 
explain what this chart indicates both for aircraft at military 
power and at full afterburner?
    General Schwartz. Ma'am, having not reviewed that chart, I 
would prefer to offer you a considered response rather than one 
off the cuff.
    Ms. Giffords. Okay.
    The second chart I was provided with is entitled Predicted 
Sound Levels at 1,000 Foot Level Flight, and I was hoping that 
we could also get some feedback which indicates for aircraft 
flying at minimum power and then at military power what this is 
going to mean for communities?
    General Schwartz. Again, ma'am, I am disappointed if you 
didn't get a narrative to go along with these charts. If we 
didn't we failed you and allow us to remedy that situation.
    Ms. Giffords. Thank you, Mr. Secretary. What we really need 
to do is get this data out to the communities and make sure our 
communities understand how these numbers compare to other real 
world factors. For example, according to the National 
Institutes of Health [NIH], a lawn mower creates about 90 
decibels and an ambulance siren creates 120 decibels, and so we 
need to make sure that the communities understand fully what 
the F-35 means to them. And again, I think also, particularly 
those of us in southern Arizona that have experience what the 
F-16 and the block 60 F-16s that have flown out of southern 
Arizona, and also the A-10 and we host Operation Snowbird as 
well at Davis Monmouth Air Force base, these are the noises 
that the community has experience with.
    We are looking forward to the opportunity of having the F-
35 in southern Arizona, but as these hearings come before us, 
we want to make sure that the community, and rightfully so, has 
full access to the correct information. So thank you for your 
consideration. I look forward to hearing back from you.
    The Chairman. I thank the gentlelady.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. I want to thank both 
of our witnesses for being here today.
    As a backdrop, I am very unhappy with Secretary Gates and 
his decision to not to go forward with the Air Force's 
selection of the tanker that Northrop Grumman and EADS came up 
with and you selected after a full, fair, and open competition. 
I think he did a disservice to the warfighter, and particularly 
to the Air Force who picked the tanker that they wanted. Having 
said that, some of my colleagues don't have a dog in that 
fight, but I do since it was going to be built in Alabama. I 
want to talk a little about where we are with that.
    My recollection from the testimony here with the GAO 
[Government Accountability Office] of the protested areas of 
discontent by Boeing, only six merited GAO acknowledging those 
could have made a difference in the selection, but they 
couldn't say that they did. Rather than going back and just 
remedying those six areas, tightening the language, I 
understand from what I have seen, the initial RFP for comment, 
and it completely is one-sided in my view, which is why I am 
very happy with what Senator Shelby is doing in the other 
Chamber.
    I understand there is the public comment period, and you 
are ready to come forward, do you see dramatic changes in the 
RFP from the one being offered for public comment? Because from 
what I understand, Northrop is not even going to bid if that is 
the case.
    Secretary Donley. Sir, we will be prepared actually 
tomorrow to roll out the RFP. I believe you have been invited, 
if you have not heard already, to a series of briefings 
tomorrow that are planned. The Deputy Secretary and Dr. Carter, 
the Under Secretary and myself, will be over here briefing 
Members on that. So I think I would withhold comment on KC-X 
today and let that be tomorrow's issue, if that is okay.
    Mr. Rogers. Do you think in your opinion, I am not asking 
for Secretary Gates' opinion, I am not really interested in his 
opinion, in your opinion, will this be a fair and open 
competition? Will the RFP, will it solicit competition?
    Secretary Donley. Absolutely. We believe both offerors have 
a chance to win the competition. We want a competition, and we 
disagree with the view that the draft RFP has been slanted in 
any particular direction. We do take issue with that.
    Mr. Rogers. If that is the case, why would you deviate from 
the initial RFP which was bid and you selected the airplane or 
the tanker you wanted, why would you change any more than just 
those areas of disagreement where the GAO acknowledged there 
was meritorious dispute?
    Secretary Donley. I believe the overall message from the 
GAO assessment was that yes, there were specific areas that 
they took issue with. But overall, I think the message was that 
there was too much imprecision and too much subjectivity that 
could not be conveyed to the offerors in terms of how the 
decisions and how the evaluation would be made.
    So we took away from that the need to tighten up our 
description of what the required capabilities were and how the 
evaluation would be conducted and to lock down those details, 
to be as open and transparent and as clear as we possibly could 
be. And that is the source really of the draft that has been on 
the street.
    Mr. Rogers. Well, my concern is the tightening down of that 
language has basically guaranteed Boeing to get this plane.
    Secretary Donley. We do take issue with that, sir, but I 
understand your view.
    Mr. Rogers. You made the reference earlier in response to 
my colleague from Georgia's question about the dual 
procurement. I understand you are operating on the assumption 
that the dual procurement would be more expensive. If it could 
be proven that it would not, would that be an avenue that you 
would pursue?
    Secretary Donley. Sir, I think we have analyzed this from 
several different sides over the last year. We are always open 
to suggestions and constructive comment on how we do our work. 
We think that we have addressed this and concluded that that 
would not be an effective and efficient way to proceed.
    Mr. Rogers. Thank you very much for your responses. Thank 
you, Mr. Chairman.
    The Chairman. Thank you very much. Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being here today.
    General, going to a narrow scope here, I am from North 
Carolina, and we had put language in the last Defense 
Authorization Act that you were supposed to get back to this 
committee within a certain amount of time discussing Pope Air 
Force base and its relationship with Fort Bragg. The growth at 
Fort Bragg, there will be 34 flag officers on base. FORSCOM 
[U.S. Army Forces Command], the 18th Corps, their missions 
require the ability to get to places in a hurry, requiring an 
immense amount of planning. The language is along the lines, is 
there sufficient Air Force officer level to be able to 
communicate and be able to present the position of the Air 
Force effectively with all of the other officers that are 
there, and that report is due March 1. So we are looking 
forward to that information, sir.
    Mr. Secretary, one of the things that has come out of the 
discussion today, and nothing new in that regard, is concern 
about deployment of the F-35. You mentioned level of 
concurrency as a level of concern that has delayed the program. 
I wonder if you can elaborate on some examples of this issue 
and how it has affected the deployment of the F-35?
    Secretary Donley. Well, the issue, sir, is not uncommon to 
any other aircraft or major production program of any kind. So 
once the production line has been facilitized and begins to 
build up to produce test assets, it is inefficient to stop the 
line while you wait for the results of the test because the 
test can take a year, the test can take two years, and if you 
do not support the production line with continued aircraft 
production, it goes cold and then you have to pay the cost of 
starting it up again. So this is a situation common to just 
about every production program of consequence that you might 
think of.
    In the case of the F-35, there was a lot of concurrency 
built in so development was intended to extend for a particular 
period of time while we started production. I think what has 
happened in this case is that concurrency was just 
unsustainable. The test program has been delayed, and the view 
was we just need to have more hours on the test program before 
we get to significant ramps in production. We are not 
eliminating concurrency in the restructured program.
    The proposal that you have in front of you is for 22 
production aircraft in fiscal year 2011. We think that is 
prudent. It has been shaved from last year's estimate of what 
we thought we were going to ask you for in 2011, so we have cut 
down that ramp but we do need to proceed with production, but 
we are adding money back into development program, to speed up, 
to add test aircraft to get further down the test program 
before we begin to ramp up production at truly significant 
levels.
    Mr. Kissell. Beyond the engine, is there one or two areas 
of this development that are proportionately more challenging 
than others?
    Secretary Donley. Just a couple of points. This is the 
biggest and most complex procurement program the Department has 
ever undertaken. So we have the carrier variant and we have the 
short takeoff and landing variant, and the conventional all 
being developed at the same time. And we have our international 
partners and their needs completely integrated into the program 
from the very beginning.
    So we have truly a complex, very complex joint program and 
international program. So it has been a big challenge. Again 
with very advanced technology. So it is a huge and complex 
program. We should not lose sight of that.
    Mr. Kissell. The proportion that you just mentioned of this 
program, how important it is that obviously brings about so 
much of the need to get it going, and I am just wondering what 
kind of time frame are we looking at to have deployable, 
meaningful numbers of planes in the air?
    General Schwartz. For the Air Force, I can only speak for 
the Air Force, that will be late in calendar year 2015. We will 
have training aircraft in advance of that.
    Mr. Kissell. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Our Nation's dependence on and demand for space assets have 
grown exponentially. At the same time our potential adversaries 
demonstrate capabilities that make our space assets 
increasingly vulnerable. One example of this was China's 
shootdown of its own satellite in January of 2007. With these 
factors in mind, our demand for and dependence on space and our 
adversaries' asymmetric means to deny those capabilities, in 
view of that, why does the current budget cut the resourcing 
for operational response of space by 24 percent? And this 
follows a huge reduction in the previous fiscal year which 
equals a 2-year cut of 59 percent? Operational response of 
space is intended to be responsive to a joint force commander's 
battlefield needs and surge capability and can also serve to 
replenish our space capabilities given natural events or 
attack.
    So to repeat, how, when demand is growing and our threats 
are expanding, can we justify a cut this year of 24 percent to 
this program?
    Secretary Donley. Sir, I would like to confirm the numbers 
for the record with you. But ORS [Operationally Responsive 
Space] remains a priority program for us. We are spending about 
nine percent of our Air Force resources on space.
    That is only exceeded by the mobility and the global 
precision strike missionaries. Mobility really reflects the KC-
X investments we are making and the size of our mobility 
forces. The global precision attack represents the F-35, which 
is our biggest, among others, but it is our biggest program. 
But behind that we have a whole slew of space programs that are 
very important to our Air Force and to our joint warfighter. We 
do have priority funding on our ORS right now to get a 
capability that is in place by the end of this calendar year.
    So let me circle back with you on the details of ORS 
funding.
    [The information referred to can be found in the Appendix 
beginning on page 74.]
    Mr. Lamborn. General, do you have anything to add on that?
    General Schwartz. Just two things. One is the ORS is one 
approach to providing resilience in space. Another approach, of 
course, is being able to discern whether our platforms on orbit 
are at risk, are being threatened; and if they are, by whom. 
And this is the other part of it, the space situational 
awareness initiatives which are appropriately funded, because 
it is my personal view that you cannot deter if you cannot 
attribute.
    Mr. Lamborn. Mr. Secretary, I am glad to hear that you are 
saying this remains a priority, because when I look at the 
numbers, 2009 it was 228 million, 2010 was 124, and then the 
projected budget for 2011 is 94. So from 228 to 94 causes me 
concern.
    Changing gears here, General, two years ago the Air Force 
predicted fighter and attack aircraft shortfalls beginning in 
fiscal year 2017 and rising to an 800 aircraft shortfall by 
2024. Is the Air Force still predicting shortfalls in its 
fighter and attack aircraft inventory?
    General Schwartz. Certainly not at that level, and there 
are a couple of reasons for that. One is that the total number 
of aircraft that are required is somewhat less than what was 
the top line several years back; 2,200 is now 2,024. Secondly, 
that initial analysis was done based on a F-35 production rate 
of 48 aircraft vice 80, and we do believe that once we break 
out of the development phase for the F-35 that we will make 80, 
and we will be trying to even push that higher. And a third 
aspect of this is that we have looked, and, as the Secretary 
suggested, that one thing that was not considered then was the 
ability to make modest renovations on aircraft to extend their 
service life until the F-35 becomes available in numbers.
    Mr. Lamborn. You are able to keep going, although I can't.
    The Chairman. You can complete the answer.
    General Schwartz. And so the point is, sir, that at most, a 
so-called deficit is less than 200 aircraft, and again this is 
in my view within the realm of the manageable, depending on 
what we do to renovate existing airplanes.
    The Chairman. I thank the gentleman. Mr. Heinrich.
    Mr. Heinrich. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today. I want to start 
off just by thanking Representative Lamborn and reiterating his 
concern over the ORS program. I think it is a game changer for 
us in many ways in terms of doing more with less. And I am not 
sure that the cuts in that program are going to serve us over 
the long run in terms of reducing or increasing our ability to 
do more with less financial resources.
    Changing gears, I know that we all know there have been 
some serious incidents in the past, particularly 2006 and 2007, 
regarding the mishandling of nuclear weapons materials. And I 
remember back in 2008, the Schlesinger task force found that 
there had been an ``unambiguous, dramatic, and unacceptable 
decline in the Air Force's commitment to perform the nuclear 
mission.'' Since then you have made the reinvigoration of the 
Air Force nuclear enterprise your highest priority, and I want 
to commend you on those efforts. They are much appreciated. 
There are obviously still some challenges, but absolute 
perfection is the standard that you have articulated on 
numerous occasions when dealing with these high-value assets.
    I want to ask you, can you please describe what steps are 
being taken to address the remaining deficiencies? And are 
there enough resources being allocated to Air Force nuclear 
security to meet the standards for perfection in maintenance 
and in storage?
    General Schwartz. Yes, they are. Some of the initial things 
we implemented were organizational; that is, standing up of a 
Nuclear Weapons Center, as you are well aware, standing up a 
Global Strike Command, moving the nuclear missiles and nuclear-
capable bombers into the same organization rather than 
distribute it around our Air Force. These were all important 
initiatives. But in the end, this is also an issue about human 
capital. This is an issue of culture in which we, as 
Schlesinger indicated, had lost the edge. And this is not a 
short-term undertaking. This is recreating that culture of 
excellence, that non-acceptance of deviations in this 
particular area. And we continue to work on that.
    Our inspection results, as you are aware, have--and by the 
way, just to give you a quick insight, in 2005 through 2007, we 
had zero no-notice evaluations. And in the following year, 
2008, we had three. In 2009 we had eight, and this year so 
far--and we are only a couple months in--we have eight so far 
this year. It gives you a sense that we are doing this no 
notice more frequently and more invasively--not to make life 
hard for our kids, that is not it at all--but to ensure that we 
discover where we are not up to par. We kidded ourselves 
before. We can no longer do that.
    So part of it is institutional, sir. Part of it is culture. 
And we are working both angles. The cultural piece is longer-
term.
    Mr. Heinrich. But you feel that the resources are adequate 
to support that change in culture?
    General Schwartz. Indeed.
    Mr. Heinrich. Great. Wonderful.
    I also want to thank my colleague Mr. Turner from Ohio for 
bringing up the recent successful demonstration, the ABL 
project. I was hoping maybe you could articulate just a little 
more where you see directed energy going within the Air Force 
over the foreseeable future.
    General Schwartz. The Secretary may choose to elaborate, 
but my view is that the sweet spot on this is solid-state, 
something which isn't as big, isn't as heavy, doesn't require 
exotic chemicals to operate, and ideally can be miniaturized so 
that it can operate in a variety of aircraft, both large and 
small. That is the path that we need to proceed on. I have some 
indication from our SMART [System Metric and Reporting Tool] 
folks that this is within the realm of the technological 
possibilities.
    Secretary Donley. Just to elaborate a little bit further, 
part of the additional focus in this directed energy program 
will be where to put the mission emphasis on developing this 
kind of capability, at the tactical level or at the strategic 
missile level, for example. And there are some trade-offs to be 
made in that in terms of range and power.
    But just to come back to where we started, there is no 
question that the ABL program has made important strides for us 
and has done some groundbreaking work in acquisition, pointing 
and tracking, all kinds of scientific research that will 
support our program going forward. But whether or not the 
existing ABL program, as it exists today, is the right vehicle 
to take this research forward, is a separate question.
    Mr. Heinrich. Thank you, Mr. Chairman.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    A couple questions on the ISR assets. A recent GAO report 
indicates that the Air Force only has the capability to process 
one-half of the Predator signals intelligence collected. What 
are the Air Force plans to correct this shortfall?
    General Schwartz. Sir, I would dispute the GAO 
characterization a bit. However, an example is we intend to add 
702, roughly 700 linguists to our processing enterprise in 
order to address the difficulties they suggested that we have. 
But at a higher level, I think it is important to appreciate 
that what we have been doing recently really is solving our 
problems with people power. We can't continue to do this. We 
have added 4,700 folks to the ground processes system for video 
and signals. And we are continuing to grow the take. The real 
secret here is automated processing, and that is the path that 
we will have to go in order to do this well, not unlike the NSA 
[National Security Agency] model.
    Mr. Coffman. General Schwartz, is lack of UAV data 
encryption and the possibility of terrorist and insurgent 
interception of the video or data signal an issue to the United 
States Air Force?
    General Schwartz. I think it is a modest issue, if that. 
The reality is that we made a conscious decision to provide 
full-motion, real-time video to our folks on the ground, to our 
troopers on the ground. That was the priority, to give them 
situation awareness. The argument that others can see that 
video and make tactical use of it I think is a stretch. 
Nonetheless, we are encrypting that capability that will begin 
in 2011 and it will be completed by 2014.
    But what I would not want to do is to withdraw the value of 
that video from our Army and Marine Corps brothers and sisters 
on the ground because we have sort of, I think, excessive 
concern about others being able to see the take.
    Mr. Coffman. My final question is on your personnel system 
and your promotion system and an effort, I guess related to 
recruiting and retention. I think you have got a lot of great 
folks, and they want to make careers out of the United States 
Air Force. You have an up-and-out promotion system that seems 
to be a relic of the past, in a way. And I only say that 
because--what do they say--sometimes I think that the new 52 is 
the old 42 in terms of age.
    And I am wondering, have you thought about lengthening up 
those times for when an airmen or an officer comes up before 
the promotion board? It seems that the process is pretty fast 
right now, that we are focused on this 20-year window for a 
career--and where we have people that certainly want to stay in 
longer than that, that are capable of doing their job but may 
not be competitive given the highly competitive environment of 
your organization right now.
    General Schwartz. Well, we currently have 1,600 more 
officers than our end strength permits, so we are keeping some 
on board perhaps longer than we should. I think that for a 
vital, physically active, aggressive force, which is what you 
want your Air Force to be, I think that the notion that you 
either compete or you move on, I think there is still merit in 
that basic philosophy.
    We do make exceptions, sir. And that is actually fairly 
common in those situations, or where someone is not promoted 
and they are continued in some cases to 24 years, in some cases 
to 28 years, depending on their specialty and the need. I think 
that should still be the primary factor of consideration: the 
need.
    Mr. Coffman. Thank you, Mr. Chairman, I yield back.
    The Chairman. Thank you. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Gentlemen, thank you 
very much for your appearance today and for your service to the 
country.
    I recently took over as--and had the privilege of chairing 
the Strategic Forces Subcommittee for the Armed Services 
Committee. And I know that obviously, as you are well aware, 
the Air Force has primary jurisdiction over, or at least 
control over personnel and equipment, including national 
programs involving your jurisdictions.
    I would like to go back to some of the questions that my 
colleagues have already brought up.
    Let's turn first back to ORS. Can you please describe the 
programs and the capabilities the Department is funding in the 
fiscal year 2011 request to improve spatial situational 
awareness, space control, and counterspace programs, first of 
all, and more specifically also how all these activities reduce 
the vulnerability of our space assets? And beyond that, can you 
also elaborate a little further on how have military 
operational plans and contingency plans changed to reflect the 
possibility that those satellites may be unavailable during 
times of crisis or war?
    Secretary Donley. Sir, a couple of points. We do have a 
space-based surveillance system that is funded in this program. 
We do have a Joint Space Mission Operations Center space 
management system that we intend to install at 14th Air Force 
headquarters to improve space situational awareness, 
modernizing that situational awareness to provide us a better 
sense of what is happening in space, who is up there, and the 
precise location and characteristics of their satellites, for 
example, in their operations. Very important initiatives for us 
going forward.
    Mr. Langevin. General, you had a comment?
    General Schwartz. I would just extend on that. Part of this 
is knowing what the inventory of objects is above. Part of this 
is again being able to identify phenomenology that might be 
natural or it might be manmade and being able to differentiate 
between the two. Space-based surveillance systems should help 
us do that, the first launch of which is going to occur this 
year.
    I think that the key thing about this is that we need to be 
able--we need to drive toward a capability which will not only 
warn us of interference in whatever form it may take--physical, 
electronic, RF [radio frequency], so on--but attribute that, 
definitively to a source. When that occurs, then one can take 
action to protect your assets through any number of means.
    Mr. Langevin. Can you address more specifically about 
redundancy about how the military operations plan and 
contingency plans change to reflect the possibility that these 
capabilities may not----
    General Schwartz. I will give you an example--well, there 
are two. One is that we actually have war games where we have 
considered a day without space; in other words, intellectually 
trying to make sure that we understand what the puts and takes 
are, and what are the consequences of losing. Let's say you did 
not have GPS [Global Positioning System], or it was jammed; are 
our air crews prepared to operate in a GPS degraded 
environment? And that is something that we are training to in 
larger measure. In other words, taking those things that we 
perhaps in the not-too-distant past have taken for granted, but 
understand that an adversary might degrade them, and can we 
fight through that degradation?
    Mr. Langevin. Let me, if I could, also turn to the Space 
Posture Review [SPR]. It appears that the Congressionally-
mandated Space Posture Review performed in partnership with the 
Director of National Intelligence [DNI] isn't going to be 
completed until the summer. Can you tell us anything about how 
the war performed thus far on that review and the QDR 
[Quadrennial Defense Review] have influenced modernization 
investment plans for national security space programs? That is 
one.
    And finally, before my time runs out, nuclear enterprise. I 
would like you to give a specific--could you provide 
information on inspections of our nuclear arsenal? I understand 
there were two failures recently. So on those two, as much time 
as the Chairman will allow. Then, if you can't finish it, for 
the record.
    Secretary Donley. Just quickly on the SPR, I do expect that 
Congress will see the results of that this summer. To put a 
very broad summary on it, you will see I think some emphasis--
while we have a lot of details to work through and some 
important policy decisions for senior leadership to make, I do 
think you will see more emphasis on striking the right balance 
between government and commercial use of space assets and how 
we leverage the work that is done in the commercial sector. For 
example, hosting payloads--commercial DOD-related payloads on 
commercial satellites is one aspect of that. And it also gets 
to the redundancy issues that you discussed before.
    Just a couple of words: Space is getting more congested and 
space is getting more contested I think are a couple of themes 
that you will hear in that review.
    [The information referred to can be found in the Appendix 
beginning on page 73.]
    General Schwartz. Mr. Chairman, 10 seconds. Kirtland did 
earn unsatisfactory grades in inspections but, interestingly, 
recently the 377th Wing, also at Kirtland, retested to 
satisfactory. So again this is a process that we are in, sir.
    The Chairman. I thank the gentleman. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman, and thank both 
of you. Every time we have Armed Forces come before us I 
usually try to express gratitude to them. And, General 
Schwartz, I want to tell you that I think you are a credit to 
the Air Force and to this country. People like us up here talk 
about freedom all the time, and people like yourselves have 
carried it on your back your whole life. I am very grateful to 
you. That is just a little commercial there.
    General Schwartz. There are 332,000, plus 70,000 Reserve 
and 100,000 Guards, sir.
    Mr. Franks. And God bless every one of them. I bet every 
one would echo what I just said about you, sir.
    Secretary Donley, I know it is a challenging thing to be in 
your chair, so my first question is related to the resources 
needs of the Air Force, and so I ask you a two-part question. 
Number one, do you think you have the adequate latitude to 
speak with complete candor about the resource needs of the Air 
Force, and do you think that we are resourcing the Air Force 
adequately?
    Secretary Donley. Sir, I think given the national 
constraints in front of us, the DOD constraints in front of us, 
the Air Force is funded adequately to meet the needs it has 
today. The Department of Defense and the Department of the Air 
Force have challenges in the future in recapitalizing our 
forces, and I have been very up front with audiences of all 
types and with our leadership in making the case that the Air 
Force cannot afford to do as much we think needs to be done on 
the schedule that we would like to do it. We don't have all the 
resources; we don't have all the programs in place. The 
programs in place that we do have are too expensive and they 
take too long to build, and we perpetuate that by not having 
the resources to put up front to make them go faster or to buy 
them more efficiently. And the tanker is a good example of 
that, where our buy is going to be extended for quite a while, 
in part because we don't have all the resources we would like 
to do aviation, modernization, space modernization, build the 
cyber capabilities we need, build all the ISR, do all of those 
things that we would like to do as fast as we would like to do 
them. So we are--not unlike previous leadership or those that 
will follow us, we have to make those tough choices.
    General Schwartz. If I may, may I just amplify that we have 
had an opportunity to engage directly with the Secretary of 
Defense on Long-Range Strike, for example. Certainly I have a 
routine opportunity to engage with the Chairman on these 
matters. Neither of us are too timid, and we have venues to 
present, sir.
    Mr. Franks. I appreciate that. Actually you have made some 
of the points that I was going to follow up with, to a degree, 
and I am grateful I didn't have to pull any teeth or anything 
and I appreciate that.
    But I would follow up this way. Under the current plan, the 
Air Force is probably going to fly most of its KC-135 tanker 
fleet, much of it built in the Eisenhower Administration, into 
the 2020s and maybe into the 2030s, and will probably do the 
same thing with the remaining B-52s that we have.
    We are capping production of the C-17 when the C-5 has a 
mission-capable rate hovering around 50-60 percent. And we have 
essentially canceled the F-22 program, capping production of 
187 aircraft, and I guess this is just as the Chinese and the 
Russians are gaining their own fifth-generation fighter 
capability. And it will take years--as I don't have to tell 
you, I am trying to make some of the case here for you, Mr. 
Secretary--and billions of dollars to reconstruct and 
reconstitute that production capability if you or your 
successor belatedly finds out that 187 aircraft was not enough. 
And it seems to me, of course, it would be better to dissuade a 
potential adversary with overwhelming capability early on than 
having to respond to something where a perceived weakness was 
provocative.
    I guess I would say here at the end that the Air Force 
fleet is around 24 years, the average age of it, and that is 
probably double what it should be. And I just want you to know 
that there are a lot of us, and I hope you will join with us, 
that we want to try to make sure that the Air Force is 
adequately resourced, because there is nothing that any of us 
do that is more important than providing not only for security 
needs of this country but to hope that that liberty that we 
have can cast across the world. So help us to make that case. 
And I think you have done somewhat today. Thank you, sir.
    The Chairman. Thank the gentleman. Gentleman from 
Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary and General Schwartz, for being with us for a very 
long time today and for your service to our Nation.
    A couple of things. Number one, a recent maritime 
publication spoke about the Stryker brigade being moved from 
the West Coast to Diego Garcia by ship and then flown the rest 
of the way, which saves us a substantial amount of money, half 
the way.
    I am just curious, what efforts are being made to find a 
port with an adjacent airfield or nearby airfield, closer than 
Diego Garcia, should the Afghan conflict drag on longer than 
any one of us want to. That would be a very smart thing for us 
to be looking into.
    Second thing is I know that the Air Force is in the process 
of moving from Manta, Ecuador to probably a place called 
Polancaro, Colombia. As someone who likes to think of himself 
as pretty good at pinching a nickel until it bleeds, I am 
disturbed that we spent a lot of money, first in Panama, only 
to leave it behind. Then in Manta Ecuador, only to leave it 
behind.
    What kind of arrangements are we making with the Colombian 
Government that, should we make substantial investments there, 
that we are there more than a decade and that we are not asked 
to leave, as we were in Ecuador? Again, you have done an 
excellent job of outlining your budget woes. That same dollar 
that was wasted in Manta could have gone towards building F-35s 
or replacement tankers.
    And so rather than continuing to make the same mistakes, 
what steps are we taking in Colombia that we don't make the 
same mistakes that we made in Ecuador?
    General Schwartz. Sir, I think we got ten years of use out 
of Manta, so that was a reasonable return on investment. But I 
take your point.
    Mr. Taylor. But, General, I remember, about the second year 
into this, the base commander at Manta telling me he felt like 
a second-class citizen on his own base. And I knew right then 
we had problems. So what steps are we going to take that we 
don't keep making the same mistakes?
    General Schwartz. I think the key thing is to have trusted 
allies and long-term allies and stable allies, because these 
relationships depend on sovereign nations. And to the extent 
that we can cultivate long-term stable relationships with 
nations in our hemisphere and elsewhere, that is the sweet spot 
on this. I think that is likely in the case of Colombia, even 
if there is a change in leadership there. There are obviously 
other nations where that continues to be true.
    There are occasions I think where we will have to go places 
that are expedient. I don't think we can dismiss that. But your 
point to invest in those who are long-term friends is one that 
certainly we agree with, and I think there is a consensus in 
the Department on that.
    Mr. Taylor. What efforts, if any, are we making to find a 
port with a nearby airfield that is closer to Afghanistan? 
Again, I am told the burden cost of fuel, of getting 1 gallon 
of fuel into Afghanistan is $400. I realize we have to do 
everything we can for the warfighter, but the taxpayers are 
telling us there is only so much money out there. So what are 
we doing to work on that cost?
    General Schwartz. That is really in General McNabb's lane. 
But there are a couple of locations, one immediately outside 
the Gulf and one inside the Gulf, where that transload 
operation that you referred to at Diego is viable, and that is 
working. I prefer to go offline with you to identify the 
specific location, but that is certainly what McNabb has in 
store and General Petraeus has in store.
    Mr. Taylor. Lastly, General, any evidence--the book Charlie 
Wilson's War is out there, the movie Charlie Wilson's War is 
out there. Obviously, the game changer there was the 
introduction of the Stinger missile. We are not the only people 
who make that type of missile. Any evidence of some sort of 
game-changing event, given our heavy dependence on air resupply 
in Afghanistan, with regard to surface-to-air vessels?
    General Schwartz. Not yet.
    Mr. Taylor. Again, thank you for your service and thank you 
for being here today.
    The Chairman. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman. Gentlemen, thank you 
for your service and for being here today.
    I would like to talk about an issue that I have brought up 
on numerous occasions for a couple of years now, the serious 
concerns that I have about the fighter gap issue and how it 
will negatively impact this Nation's national and homeland 
defense, particularly as it pertains to the Air National Guard.
    As you know, beginning in 2015, 80 percent of the Air 
National Guard fighter fleet begins to run out of flying hours. 
Without aircraft, the Air National Guard will be unable to 
continue to perform the air sovereignty alert mission and 
unable to support the Air Force in overseas operations, which I 
think it has done magnificently up to this point. Many units 
will lose their flying missions altogether and will probably 
lose some very highly skilled pilots and technicians who simply 
will not be able to be replaced.
    My question is that while Congress is still waiting for the 
plan on how the force structure and capability gaps will be 
filled since the retirement of 254 legacy fighter aircraft was 
announced last May--we all know about the delays in the F-35--
we repeatedly asked the question, and when will the underlying 
analysis be provided to this committee? And can you talk about 
why the delay in getting these answers?
    And the second question is, while we are on the topic of 
reports due to Congress, when can we expect to see the report 
on the 4.5-generation fighter gap procurement required by last 
year's defense authorization bill, which we have heard nothing 
at all on?
    General Schwartz. Congressman, with respect to the report 
on the fighter restructure, that will be delivered, as it was 
required by statute, not later than the first of April, and it 
will be delivered sooner than that.
    With respect to the 4.5, sir, I have to take that for the 
record to confirm the delivery, but when I reviewed this last, 
we were on time based on the expectations. So, Mr. Secretary.
    [The information referred to can be found in the Appendix 
beginning on page 73.]
    Secretary Donley. Sir, I believe we owe you about three, 
maybe four, reports related to fighter force structure which we 
are tying up as part of our report on April 1. So we are 
bringing several pieces of this together back to you.
    Mr. LoBiondo. I appreciate that. I know we have been 
talking about it for a long time, and there is an increasing 
degree of frustration on at least the part of some of us and 
how we understand this bathtub fighter gap--choose the 
terminology you would like--will be filled. And for those of us 
who have a particular interest in the Air National Guard, this 
is a very serious concern, because as the clock ticks we get to 
a point where we think there is something that can be done now 
in the interim if the problem is identified and we can all 
agree on a consensus solution. But at a certain point in time, 
we run into a serious problem making it up, and we don't want 
to see things go dark when we could have made a decision at a 
point in time not to have that happen.
    Secretary Donley. Sir, I think that chief has been to 
earlier address this issue with respect to what this so-called 
bathtub looks like. This is a different problem, a much smaller 
problem than it was a couple of years ago. The requirements 
have changed. The perception of what is required to do this 
work has been adjusted in the last few years.
    Having said that, we know we have aging platforms. Going 
forward, it is our intent to look at whether or not we need 
service life extensions for F-16s sometime later in this 
decade. And we are working through those issues right now.
    But it is not our intent to invest in new so-called 4.5-
generation aircraft. We think there is probably--if we need to 
do slips, that is probably a better deal for the taxpayer going 
forward. And so that is how we are addressing that.
    We do not see right now a threat to the air sovereignty 
mission right out in front of us. This is a mission our Air 
Force is doing every day, about 18 sites, about 40 aircraft, at 
any given time, so we think this is covered.
    Mr. LoBiondo. Thank you sir.
    The Chairman. Mr. Conaway, please.
    Mr. Conaway. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here.
    The issue I would like to talk about doesn't have anywhere 
near the glamour or romance of second engines on F-35s or F-22s 
or those kinds of things. But I am the only CPA [Certified 
Public Accountant] on the committee. And the Air Force, the 
Department of the Air Force, cannot produce financial 
statements today that are auditable and would pass and have a 
clean audit. The ability to make good management decisions--and 
those structures reach across every single one of those 
procurement issues, soup to nuts. And so that won't happen 
unless I can get the Secretary of the Air Force and the Chief 
of Staff of the Air Force to look me in the eye and say, among 
all the other nine zillion first priorities that you have, that 
you are committed to working with the Business Transformation 
Office and others to get us to a point that that can happen. 
There are benefits separate and apart just from that. But to 
encapsulate just the drill, let's just call them the audited 
financial statements.
    So can you give me your thoughts on where that fits in the 
pecking order of things you guys think are important?
    Secretary Donley. Sir, I had the privilege of serving as 
the assistant secretary for financial management when this 
issue first started in about, roughly, 1990. This is a long-
term effort, and it continues to take longer than we would 
like. But the Department is focused on this problem. It is 
getting attention.
    The current assistant secretary for financial management is 
working on this issue with the DOD comptroller and the BTA 
[Business Transformation Agency] office. We have a number of 
modernized systems that are required to be in place to make 
this work--in personnel, logistics--and they all need to be 
interconnected. And we have not succeeded in fielding those 
large systems. We have not been successful. So we need to 
continue working it, and we know it is a challenge. We are 
committed to working the problem.
    Mr. Conaway. I don't discount how hard it is. I do know how 
hard it is, but it is not impossible. And the value can't be 
overstated. You have no clue what you are spending on all these 
legacy systems and all the workarounds that the folks behind 
you scramble. As soon as General Schwartz asks a particular 
question, somebody, somewhere, goes into panic mode because the 
system they are working with is not the best. I acknowledge it 
is hard. But if the voters in District 11 let me keep coming up 
here, I am going to continue to hammer away at this, because I 
don't want to overstate it.
    Secretary Donley. Don't stop.
    Mr. Conaway. From your lips to the voters' ears in Texas.
    C-5s. I have asked this question of your predecessor, 
General Schwartz. If you ran a major airline who had planes 
that won't fly, do you think they would go through all these 
hoops, the section 137, 138 requirements, and 90 days' notice 
and all this. For the record, I don't have any C-5s in my 
district, or C-17s, but can you give us some sort of a sense of 
what it costs year in and year out to maintain planes that you 
say you don't need, so that we can meet some requirement of the 
NDAA that is driven in no small part by the needs of the 
particular districts?
    [The information referred to can be found in the Appendix 
beginning on page 74.]
    General Schwartz. It is in the multiple millions of dollars 
per platform.
    Mr. Conaway. Annually?
    General Schwartz. Yes. But, again, I would just ask you to 
think that it is not just the money. There are maintenance 
personnel devoted to the aircraft. There are crews devoted to 
the aircraft that, you know, that are not as well utilized as 
they might otherwise be in another part of our Air Force or a 
similar mission in a different airplane. The bottom line is, 
this is a fleet management issue and we appeal to you to allow 
us as much latitude as you can to work out the legacy machines 
and to bring on the new.
    Mr. Conaway. I understand my colleagues who have those 
aircraft in their districts that are not capable of being able 
to pitch this issue. But those of us that don't need to know 
the hard dollars and soft dollars and just the ideas as to what 
it does to your Air Force and our Air Force to force you to do 
things that good management wouldn't do in any other spectrum 
of flying airplanes, help us to understand the costs that that 
is; because we can then say, all right, if F-35 engine costs X, 
and we are spending 20 times this over a number of years, what 
could we have otherwise spent that money on? And you can pick a 
variety of alternative uses for dollars in a scarce 
environment.
    Thank you very much, Mr. Chairman. I yield back with three 
seconds left.
    The Chairman. Thank the gentleman. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. And Secretary, General 
Schwartz, I appreciate your patience here. And as the most 
junior member of the committee I think I get to be the wrap-up 
here.
    I want to first associate my comments with Congressman 
Conaway and the issue of financials. I had the privilege of 
chairing the Subcommittee on Financial Management and Oversight 
for four years, and getting to that bedrock and auditing your 
internal controls so that you can get after what the 
Congressman talked about is so important. By doing it you will 
ultimately be able to do better in providing your personnel 
what they need because of the dollars you are going to save.
    I apologize for not being here at the beginning of the 
hearing. I have two other committees I serve on that were 
meeting at the same time.
    I understand, General Schwartz, in response to Congressman 
McKeon on the Don't Ask, Don't Tell, that your statement was, 
given the OPTEMPO that we are currently experiencing, that this 
would not be a good time to go forward with that policy.
    One followup question, you may have addressed. Is that 
based on more of a general assessment of your almost 37 years 
of courageous and heroic service to our Nation, or a specific 
solicitation from your senior NCOs [noncommissioned officers], 
your captains, your majors who are out there on the front line 
and how this policy would impact them given the tempo we are 
experiencing?
    General Schwartz. It is the former and not yet the latter. 
But we need to have real information in order to do due 
diligence here, sir. And a reality is that we do not have 
either that valid, statistically sound survey data or the kind 
of scholarship that one needs to sort of assess this properly. 
So, in my view this is not a good time because of the demands 
on the force. But the Secretary of Defense's approach to have 
that study group produce this decision, actionable 
information----
    Mr. Platts. So we have that concrete data. I share that 
assessment that we need to really know, bottom line, how is it 
going to work if we go forward and what consequences there 
could be.
    A followup. Congressman Coffman asked about the UAV issue 
and the 50 percent of what we are gathering not being able to 
be actually assessed. I appreciate your answer on the 700 
additional linguists and the technology needs.
    Can you give a time frame both on the 700 personnel that 
you are committing and what you expect the time frame to be to 
get to more of the technological investment that will diminish 
the need for the personnel?
    General Schwartz. I think it is within, you know, it is 
within the program period. So it is within the next four or 
five years we will deliver all of those airmen into those 
billets. And the technology is there, that is my sense, to 
process video-shoot. We have seen it repeated for us at the 
games that we are watching here over the last few days at the 
Olympics. So we know that it is there. We just need to go get 
it and move out. So the personnel will plus-up over the next 
couple of years. And I believe the technology is available now, 
and likewise we will deliver over that period.
    Mr. Platts. And my hope is that that remains a priority, 
given how certain we are the impact it has to those soldiers, 
marines on the ground, and being able to be successful and safe 
in their mission. So I appreciate that effort.
    And, again, to both of you, I appreciate your service to 
our Nation. And General Schwartz especially, with close to 37 
years in uniform, we are blessed by you and all who wear the 
uniform, and your staff and all of our branches.
    Thank you, Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman. Mr. Secretary, 
General, we thank you for your excellent testimony this 
morning, and we will be using it undoubtedly when we put 
together our national defense bill. Thank you.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 23, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 23, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8102.001
    
    [GRAPHIC] [TIFF OMITTED] T8102.002
    
    [GRAPHIC] [TIFF OMITTED] T8102.003
    
    [GRAPHIC] [TIFF OMITTED] T8102.004
    
    [GRAPHIC] [TIFF OMITTED] T8102.005
    
    [GRAPHIC] [TIFF OMITTED] T8102.006
    
    [GRAPHIC] [TIFF OMITTED] T8102.007
    
    [GRAPHIC] [TIFF OMITTED] T8102.008
    
    [GRAPHIC] [TIFF OMITTED] T8102.009
    
    [GRAPHIC] [TIFF OMITTED] T8102.010
    
    [GRAPHIC] [TIFF OMITTED] T8102.011
    
    [GRAPHIC] [TIFF OMITTED] T8102.012
    
    [GRAPHIC] [TIFF OMITTED] T8102.013
    
    [GRAPHIC] [TIFF OMITTED] T8102.014
    
    [GRAPHIC] [TIFF OMITTED] T8102.015
    
    [GRAPHIC] [TIFF OMITTED] T8102.016
    
    [GRAPHIC] [TIFF OMITTED] T8102.017
    
    [GRAPHIC] [TIFF OMITTED] T8102.018
    
    [GRAPHIC] [TIFF OMITTED] T8102.019
    
    [GRAPHIC] [TIFF OMITTED] T8102.020
    
    [GRAPHIC] [TIFF OMITTED] T8102.021
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 23, 2010

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. LOBIONDO

    General Schwartz. The report on procurement of ``4.5 Generation 
Aircraft'' will be delivered on or about 1 April. [See page 40.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BISHOP

    Secretary Donley. The current SRM Warm Line effort sustains skills 
required to reproduce 1960's-era technology SRMs. In our FY11 budget 
documentation, we estimated we would be able to purchase three boosters 
with the $39.2M available. This is a conservative estimate and the 
actual number of boosters we can purchase will be based on price 
negotiations with the ATK.
    In addition to the SRM Warm Line, the AF's Evolved Expendable 
Launch Vehicle (EELV) program utilizes and contributes to the SRM 
industrial base through its use of solid rocket strap-on motors. The 
EELV Delta IV solid rocket motor is the GEM-60, produced by ATK. The 
EELV program is currently working through the inventory of existing 
motors. The next expected lot buy will be in 2012.
    The EELV Atlas V uses solid rocket motors produced by Aerojet. 
Aerojet delivers between 5-7 motors per year. The next lot buy will be 
in 2013.
    The AF has committed to a long-range Minuteman III (MM III) 
sustainment program to extend the life of the weapon system through 
2030. The 526th ICBM Systems Group's ICBM roadmap addresses both near-
term and long-term issues to meet weapon system operational 
requirements. This roadmap highlights both critical test/support 
equipment replacement requirements and numerous other weapon system 
components that need to be replaced due to wear and obsolescence. The 
most time-critical test and support equipment replacement efforts are 
currently underway. Other top-priority near-term needs are addressed in 
the FY11 PB.
    The AF continues to view MM III sustainment as a top priority. The 
AF is evaluating options that would support an industrial base that can 
stand ready to resolve issues with the current fleet and also prepare 
to integrate modern technology for next-generation systems. [See page 
25.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS

    General Schwartz. The My Career Advancement Accounts (MyCAA) 
program is administered and monitored by the Office of the Secretary of 
Defense/Military Community and Family Policy (OSD/MC&FP) rather than 
the individual Services. The Air Force spouse employment point of 
contact was notified on 16 February by an OSD/MC&FP staff member of the 
``pause'' in MyCAA operations. We were advised the reason for the pause 
was for a review of software applications, financial assistance 
documents and of the overall program.
    Air Force provided notification to all installation Airman & Family 
Readiness Centers immediately so they could field any questions from 
spouses and up-channel concerns that are subsequently being passed 
along to OSD/MC&FP. Air Force spouses are also being directed to other 
sources of financial assistance for education and training such as the 
Air Force Aid Society funded Spouse Tuition Assistance Program for 
those stationed overseas, the Hap Arnold Grants for stateside spouses 
and the Spouse Employment Program which can provide entry-level job 
training with a goal of finding immediate viable employment. [See page 
20.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN

    Secretary Donley. Prior to the 23 Feb, 2010 hearing, two Air Force 
bases (involving three units) received unsatisfactory ratings on a 
nuclear surety inspection. Details of those inspections follow:
    1) 2nd Bomb Wing (2BW), Barksdale AFB, LA
    Dates of inspection: 6 - 13 Jan, 2010
    Overall rating: Unsatisfactory (Re-inspected to Satisfactory, on-
the-spot)
    Reason(s) for failure: (Non-systemic) Munitions handling trailer 
and aircraft were improperly grounded. More specifically, the aircraft 
and munitions trailer were grounded to separate ground points. 
Inspection team ruled this critical deficiency violated a ``warning'' 
in the maintenance Technical Order.
    Corrective action(s): Load crew chief, and 2 crew members 
decertified by Wing Weapons Manager. Prior to inspection team 
departure, a re-inspection of the aircraft loading technical operation 
was accomplished with a different team and the load team performed in a 
flawless manner.
    Note: On-the-spot Re-inspection policy. When a unit is rated 
Unsatisfactory for a condition which can be corrected immediately, the 
Nuclear Weapons Technical Inspection Chief Inspector may, at his or her 
discretion, and with the concurrence of the commander of the inspected 
unit or support unit, make an on-the-spot re-inspection and include the 
results in the original report. (Technical Order 11N- 25-1, DOD Nuclear 
Weapons Technical Inspection System)
    2) 341st Missile Wing (341 MW) and 16th Munitions Sq (16 MUNS), 
Malmstrom AFB, MT (represents two MAJCOM inspection teams inspecting 
two separate units at the same location)
    Dates of inspection: 2-10 Feb, 2010
    Overall rating: Unsatisfactory
    Reason(s) for failure:
    (341 MW, AF Global Strike Command) (Systemic) Inspection did not 
reveal an unreliable weapon or an unsafe/insecure environment; however, 
the nature, severity, and number of deficiencies documented resulted in 
an unsatisfactory rating. Concerns were raised in areas of security, 
personnel reliability program, and logistics movement (i.e. transport).
    (16 MUNS, AF Materiel Command) (Systemic) Maintenance Team Chief 
failed to accomplish a step in the Technical Order. Inspection team 
ruled this a critical deficiency which could result in an unknown/
unreliable weapon condition.
    Corrective action(s): Unit given time to put into place corrective 
actions. In accordance with DOD and AF Inspection policy, the MAJCOM 
inspection teams will conduct a re-inspection of deficient area(s) NLT 
90 days from termination of the original inspection. (Technical Order 
11N- 25-1, DOD Nuclear Weapons Technical Inspection System, and Air 
Force Instruction 90-201, Inspector General Activities)
    Note: Multi-MAJCOM inspection. Due to the integrated AFGSC and AFMC 
mission at Malmstrom AFB, this NSI was conducted as a Multi-MAJCOM NSI 
in accordance with a memorandum of understanding between AFGSC/IG and 
AFMC/IG. Each MAJCOM/IG inspected applicable areas and produced a 
separate inspection report. [See page 37.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY

    General Schwartz. In the case of the C-5As, the FY09 Operations and 
Support cost of a C-5A was $13.5M per aircraft, totaling $297M per 
year, to continue to operate the excess aircraft. In addition, the 
Maintenance and Operations manpower devoted to these excess aircraft 
can't be utilized on other aircraft. [See page 42.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. LAMBORN

    Secretary Donley. There was approximately a $30M reduction in ORS 
funding from the FY10 President's Budget (PB) to the FY11 PB for two 
reasons. First, the FY10 funding line contains approximately $18M for 
launch vehicle expenditures, which are not required in FY11. Second, 
the original FY10 request was increased by $12M for congressional adds 
(Micro-Satellite Serial Manufacturing, LEONIDAS, Rapid Small Satellite 
Development Test Facilities and Space Sensor Data Link Technology); 
these adds were not carried over into the FY11 budget. [See page 32.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 23, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MILLER

    Mr. Miller. On March 26, 2008, then Secretary of the Air Force Mike 
Wynne issued a memorandum to the force indicating that the Air Force 
should endorse a ``beyond goals'' approach to small business 
contracting. The term referred to the Air Force's Small Business 
Programs office initiative to do just that. Is this initiative still in 
effect and do you support the desire of the former Secretary to 
increase small business participation, specifically for companies with 
less than 1500 employees, throughout the Air Force?
    Secretary Donley. Yes--the Air Force Small Business Programs office 
supports efforts to increase small business participation, specifically 
for companies with less than 1,500 employees. The Air Force Small 
Business Programs office supports the ``beyond goals'' strategy and has 
developed an extensive outreach program to increase awareness and 
understanding of the impact small businesses have on the Air Force 
mission.
    ``Beyond goals'' is a strategy to bring the innovation, agility and 
efficiency of small businesses to the mission of the Air Force: To fly, 
fight and win . . . in air, space, and cyberspace. Beyond goals 
considers numerical percentage goals and contracts as tools or a means 
to an end--but not the end itself.
    The Air Force Small Business community members are not advocates 
for small businesses--we are advocates for the mission, met with small 
business solutions.
    Mr. Miller. Do you believe the Air Force should actively look to do 
business with emerging small businesses?
    Secretary Donley. The Air Force feels that we should actively look 
to do business with emerging small businesses. Small businesses bring 
innovation, agility and efficiency to the Air Force mission. Emerging 
small businesses are important to the future of a healthy industrial 
base and an integral part of the Air Force mission. Small Businesses 
also have a proven track record to deliver solutions to the Air Force 
rapidly and effectively.
    The Air Force Small Business Programs office has initiatives that 
highlight small business opportunities to support the mission. The Air 
Force Mentor-Protege Program assists small businesses (Proteges) 
competing for contract awards by partnering them with large companies 
(Mentors) under individual agreements. Also the Small Business 
Innovation Research (SBIR) program encourages small business 
participation in Federal research and development in technology with 
both government and commercial applications.
    Mr. Miller. Secretary Donley: Last year, the Secretary of Defense 
canceled the CSAR-X program stating that the Department was conducting 
a review of DOD-wide assets that could conduct the CSAR-X mission. What 
is the status of this review? Does the Air Force plan on restarting the 
CSAR-X program?
    Secretary Donley. Following cancellation of the CSAR-X program, the 
Air Force supported the Office of the Secretary of Defense (OSD) and 
the Joint Staff in their review of rotary wing support to the CSAR 
mission. As a result of that review, OSD analysis supported the Air 
Force as having a vital role in Joint CSAR.
    The current plans for replacing the HH-60G fleet involve two 
efforts, HH-60G Operational Loss Replacement (OLR) and HH-60 
Recapitalization. HH-60G OLR is the Air Force's plan to replace HH-60G 
Pave Hawks lost in combat and other operational missions to sustain the 
current HH-60 fleet strength. HH-60 Recapitalization will be a long-
term recapitalization effort to replace the entire fleet.
    The Air Force is working with OSD and Joint Staff to finalize 
requirements and an acquisition strategy that supports an HH-60 
recapitalization program to replace the fleet of aging HH-60Gs. Initial 
program funding is contained in the FY11 President's Budget. A Request 
for Information has been released to obtain industry's ability to 
provide the Air Force with a CSAR platform. The Air Force will procure 
a CSAR platform that meets warfighter requirements.
    Mr. Miller. In regard to the KC-X, you've both mentioned in various 
settings that the Air Force will move forward with a tanker selection 
regardless of the number of proposals it may receive. We've learned in 
the past that sole source contracts cost the American taxpayers a great 
deal of money while at the same time reducing and even impeding the 
military's critical need for flexibility. Are we repeating past 
mistakes by pressing forward with a one tanker option which will 
inevitably lead to sole sourcing?
    Secretary Donley and General Schwartz. The USAF is currently in an 
open competition and plans to let the process run its course. The 
planned date for proposal submission is 10 May 2010. If only one 
proposal is received, the USAF will evaluate whether the proposal meets 
all mandatory requirements and will exercise a clause in the Request 
for Proposal that requires the offeror to provide certified cost and 
pricing data (see FAR 15.406-2). The certified cost or pricing data 
will be audited by the Defense Contract Auditing Agency and used by the 
USAF in negotiating contract price. Finally, the USAF retains the 
option to not award the contract if a satisfactory agreement cannot be 
reached in the best interest of both the warfighter and the taxpayer. 
The Department clearly prefers competition because it delivers weapon 
systems at a lower cost for the warfighter and taxpayer.
    Mr. Miller. The Department seems to be dead set on a sole sourced 
tanker replacement. Do you think one single company will be able to 
provide a production rate fast enough to replace the current aging 
tanker fleet in a timely manner? How can we be sure that a sole source 
company doesn't charge us unnecessary amounts of money for speed of 
production? If we need a tanker now, why not have two companies? Would 
that not decrease the amount of time it will take to replace the fleet? 
In addition, the longer it takes to replace the fleet, the longer we 
will need to sustain the current fleet which as I understand, is 
becoming more and more expensive.
    Secretary Donley and General Schwartz. At this time, two companies 
have expressed an intent to bid for the KC-X contract. The KC-X 
contract will allow the USAF to order up to 18 aircraft per year in 
full rate production, with a target quantity of 15 aircraft per year. 
This is a reasonable production rate for a single company and meets 
USAF tanker recapitalization requirements. If the USAF receives only 
one KC-X proposal, and if it meets the RFP requirements, we will then 
obtain certified cost and pricing data to negotiate and award a fair 
and reasonable contract for the American taxpayers. The USAF considered 
all options per Congressional direction, but ruled out dual award 
approaches based on budget affordability and fleet concerns including 
increased training, operations, maintenance, and support costs. The 
Department and the USAF are committed to awarding to a single company 
through a competitive strategy for a commercial derivative tanker as 
that strategy provides the best value for the warfighter and taxpayer.
    Mr. Miller. In regard to in-sourcing, what criteria have been 
established for determining which functions should be in-sourced? What 
steps does the Air Force have in place to assist contractor employees 
whose functions may be in-sourced?
    Secretary Donley and General Schwartz. In-sourcing guidance issued 
by the Deputy Secretary of Defense on 28 May 2009 outlines a systematic 
approach that helps ensure in-sourcing decisions are fiscally informed 
and analytically based. If contract workload is found to be inherently 
governmental, experiencing contract administration problems, providing 
unauthorized personal services, or otherwise exempt from contracting 
under DOD Instruction 1100.22, Guidance for Determining Workforce Mix, 
the function must be in-sourced regardless of cost. However, if the 
contract does not fit one of the mentioned criteria, a cost analysis is 
required to determine the most cost-effective means of performing the 
work.
    The Air Force must adhere to the legal requirements of Merit 
Systems Principles that call for open and fair competition. To single 
out contractors for special assistance programs may be considered 
inconsistent with Merit Systems Principles. The Air Force has 
implemented a number of enhancements that serve to streamline the 
recruitment process, including the development of an Enterprise 
Recruitment Function at the Air Force Personnel Center (AFPC) to 
address enterprise-wide recruitment needs with a strategic focus; use 
of social networking sites (e.g., Twitter) to augment recruiting to 
meet our most critical needs; creation of an Air Force Civil Service 
Career Portal that is more applicant-friendly, resulting in larger 
pools of well-qualified candidates; and data mining using commercial 
recruitment websites to steer applicants to Air Force vacancy 
announcements. More robust and improved recruitment processes will 
benefit all applicants, including those contractor employees whose 
functions may be in-sourced.
    Mr. Miller. Over the years DOD has defined potentially hostile 
nations' military capabilities in comparison to our own in terms of 
``peers'' vs. ``near-peers''. For example, in regard to a blue water 
Navy or air dominance Air Force, the Department has maintained that the 
United States currently has no ``near-peers.'' With the advent of cyber 
warfare and the multitude of recent examples of cyber attacks, do you 
think it's reasonable to say that the United States does indeed have 
``peers''? I mean, at this point anyone, state actor or not, with 
internet connectivity and skilled in cyber operations has the ability 
to be a ``peer'' of the United States. With that in mind, do you think 
the Department should be moving toward creating a combatant command as 
opposed to a sub-unified command?
    Secretary Donley and General Schwartz. With low costs of entry and 
global interconnectivity, the U.S. does have ``peers'' and ``near-
peers'' in the cyber domain. As a Service, the mission of the United 
States Air Force is to organize, train, equip, and provide forces to 
Joint Combatant Commands. The Department of Defense has determined that 
a sub-unified command is the best command structure for the Cyberspace 
mission. The Air Force is committed to providing support for cyber 
operations as a component of any joint command arrangement.
    Mr. Miller. General Schwartz: The F100 and F110 engine competitions 
in the 1980s and early 1990s for the F-16 saved money, and improved 
engine performance, reliability and contractor responsiveness. Today, 
the Air Force continues to execute the F-16 program with two engines. 
Why wouldn't a similar program be applicable for the F-35? With fewer 
fighters today, and even fewer in the future, do you believe that the 
Air Force is taking significant risks by not including a program to 
develop and procure a competitive, alternate engine for the F-35?
    General Schwartz. The Air Force supports Secretary Gates' 
conclusion to not pursue a competitive engine. While engine 
performance, reliability, and contractor responsiveness did improve 
during the F100 and F110 engine competition, there is no evidence that 
this was a direct result of competition. Historical experience shows 
that any costs and/or benefits arising from competition are highly 
unpredictable and also depend heavily on the strategic behavior of the 
companies involved. Maintaining two engine suppliers would result in 
increased development, production, and support costs in the near term. 
The Air Force maintains that the risks involved with a single engine 
supplier are acceptable, and savings associated with competition, which 
may be realized in the future, will not sufficiently offset the upfront 
development costs when competing against existing Department 
priorities. Recent experience with engine development for the F-22 and 
F/A-18E/F indicates that sole source risks are acceptable, especially 
considering the Pratt & Whitney engine continues to meet or exceed the 
stringent performance requirements associated with the F-35 propulsion 
system.
    Mr. Miller. What is the current Air Force policy, directive or 
regulation governing the conversion of non-acquisition contractor 
personnel to government positions?
    General Schwartz. The following are the policies, directives and 
regulations governing the conversion of non-acquisition contractor 
personnel to government positions:
    1. In-sourcing Contracted Services--Implementation Guidance from 
OUSD (P&R) dated 28 May 2009, outlines a systematic approach to 
identifying and evaluating potential in-sourcing candidates. These 
guidelines ensure in-sourcing decisions are fiscally informed and 
analytically based.
    2. Guidance and Documenting Civilian In-sourcing Positions from 
OUSD (P&R) dated 31 December 2009, provides guidance on tracking DOD 
civilian personnel actions associated with in-sourcing.
    3. Directive-Type Memorandum (DTM) 09-007, ``Estimating and 
Comparing the Full Costs of Civilian and Military Manpower and Contract 
Support'' from OSD (CAPE) dated 29 January 2010, establishes a DOD-wide 
cost estimating methodology in support of workforce decisions to 
include in-sourcing.
    Mr. Miller. Is the Air Force policy different than that of other 
services? If so, why?
    General Schwartz. No, the Air Force in-sourcing procedures comply 
with the same OSD policy guidance that applies to all Service 
components. Due to the organizational differences between the Air Force 
and the other Service components, the Air Force has taken a more 
decentralized approach to in-sourcing. The Air Force relies heavily on 
the Major Commands to review their contract inventories, identify 
candidates, conduct business case analyses, and implement the resulting 
decisions. The Air Force maintains centralized control by issuing 
policy, validating business cases, and monitoring the conversion 
process.
    Mr. Miller. Has the Air Force conducted an analysis of non-
acquisition contractor conversions as they relate to the service's 
small business participation requirements?
    General Schwartz. The Air Force has not conducted an analysis of 
non-acquisition contractor conversions and the impact on small business 
goals. However, the Air Force does place strong emphasis on ensuring 
that we meet or exceed the federally mandated goals, and has instituted 
a ``Beyond Goals'' strategy to help ensure small businesses are 
provided maximum practicable opportunity to compete for Air Force 
requirements.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. With regard to the Joint Strike Fighter program, how 
will encroachment and increased noise associated with the fighters 
impact the decision to base these aviation assets?
    Secretary Donley. With the announcement of the candidate basing 
locations, the formal environmental impact analysis process and 
development of environmental impacts statements (EISs) have begun. The 
EISs will analyze potential impacts of the alternative basing locations 
for both Joint Strike Fighter (JSF) training and operational basing 
candidate locations.
    At this point in time, we cannot specifically state how 
encroachment and noise may impact the Air Force's final basing 
decision. Through the EISs, a full spectrum of issues will be 
evaluated, to include consideration of JSF noise and encroachment 
related impacts. When released, Congress, regulatory agencies, and 
local communities will be provided the opportunity to review and 
comment on these EISs through an iterative review process.
    After the draft EIS review, all comments provided to the Air Force 
will be considered and made a part of a Final EIS. This final EIS will 
support the Air Force's operational and training basing decisions, 
which will be reflected in a signed Air Force Record of Decision (ROD).
    Air Force JSF basing decisions become final when the ROD is signed 
and issued. The Air Force expects to announce the F-35 EIS preferred 
alternatives in late Spring/Summer of 2010, release a draft EIS in late 
summer 2010, and issues its ROD in early 2011.
    Mr. Wilson. On February 3, Secretary Gates told this committee that 
a business case analysis had been conducted with regards to the 
alternate engine for the F-35. Are you aware of any business case 
analysis? If so, does the Air Force agree with the Secretary of 
Defense's position not to develop and procure a competitive engine for 
the F-35? Lastly, would you be able to share any insights to this 
committee when we may be able to see the aforementioned business case 
analysis?
    Secretary Donley. The Cost Assessment and Program Evaluation (CAPE) 
office performed a Cost/Benefit analysis in FY2007. Both the original 
study and the recent FY2010 ``Quick Update'' were provided to the HASC 
on February 23, 2010.
    The Air Force supports Secretary Gates' conclusion to not pursue a 
competitive engine. Maintaining two engine suppliers will result in 
increased development, production, and support costs in the near term. 
The Air Force maintains that the risks involved with a single engine 
supplier are acceptable, and savings associated with competition, which 
may be realized in the future, will not sufficiently offset the upfront 
development costs when competing against existing Department 
priorities. Recent experience with engine development for the F-22 and 
F/A-18E/F indicates that sole source risks are modest and acceptable, 
especially considering the Pratt & Whitney engine continues to meet or 
exceed the stringent performance requirements associated with the F-35 
propulsion system.
    Mr. Wilson. The engine competitions for the F-16 saved money, 
improved engine performance, reliability, and contractor 
responsiveness. Today, the F-16 program continues to operate with two 
engines. Why wouldn't a similar program be applicable to the F-35?
    General Schwartz. The Air Force supports Secretary Gates' 
conclusion to not pursue a competitive engine. While engine 
performance, reliability, and contractor responsiveness did improve 
during the F100 and F110 engine competition, there is no evidence that 
this was a direct result of competition. Historical experience shows 
that any costs and/or benefits arising from competition are highly 
unpredictable and also depend heavily on the strategic behavior of the 
companies involved. Maintaining two engine suppliers will result in 
increased development, production, and support costs in the near term. 
The Air Force maintains that the risks involved with a single engine 
supplier are acceptable, and savings associated with competition, which 
may be realized in the future, will not sufficiently offset the upfront 
development costs when competing against existing Department 
priorities. Recent experience with engine development for the F-22 and 
F/A-18E/F indicates that sole source risks are acceptable, especially 
considering the Pratt & Whitney engine continues to meet or exceed the 
stringent performance requirements associated with the F-35 propulsion 
system.
    Mr. Wilson. The Air Force will need to submit reports required by 
Sections 137 and 138 of the National Defense Authorization Act for 
FY2010 before it can retire the 17 C-5As planned for FY2011. When will 
this committee be provided these reports?
    General Schwartz. The report is being drafted at this time and is 
expected to be delivered by early July 2010.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP

    Mr. Bishop. The proposed FY11 budget only allows for $44.2 million 
for Minuteman III warm line, of which $5 million is for unspecified 
government costs or overhead, leaving only about $39 million in this 
funding line which budget documents state are to produce only 3 motor 
sets. By contrast, the Navy funds a warm line effort for the D-5 
missile which produces 12 motor sets a year. How did the Air Force 
determine that only 3 booster motors for Minuteman III annually was 
adequate to sustain a viable warm line effort for the MM III weapons 
system through 2030?
    Secretary Donley. The number of booster motors identified in the 
Air Force budget documents is a conservative estimate. The final number 
will likely be more than three; but will not be defined until the 
contract negotiations are completed. Additionally, the Air Force is 
reevaluating the overall Solid Rocket Motor (SRM) Warm Line concept in 
order to help sustain the SRM industrial base production skills. Unlike 
the Navy, there is currently no anticipated Air Force requirement to 
replace operational MM III missile motors. An interagency task force, 
that includes representation from DOD (the Office of the Secretary of 
Defense, Army, Navy, Air Force and Missile Defense Agency) and NASA, 
has been formed to offer solid rocket motor industrial base sustainment 
recommendations to the Secretary of Defense for a subsequent report to 
Congress. The interim report to Congress is expected to be delivered in 
June 2010.
    Mr. Bishop. The proposed FY11 budget only allows for $44.2 million 
for Minuteman III warm line, of which $5 million is for unspecified 
government costs or overhead, leaving only about $39 million in this 
funding line which budget documents state are to produce only 3 motor 
sets. By contrast, the Navy funds a warm line effort for the D-5 
missile which produces 12 motor sets a year. Wasn't the number of 
missile motor sets being placed at only 3 in FY11 by the Air Force 
based primarily upon budget considerations, and not actual program or 
industry requirements?
    Secretary Donley. The number of booster motors identified in the 
Air Force budget documents is a conservative estimate. The final number 
will likely be more than three; but will not be defined until the 
contract negotiations are completed. Unlike the Navy, there is 
currently no anticipated Air Force requirement to replace operational 
MM III missile motors. An interagency task force, that includes 
representation from DOD (the Office of the Secretary of Defense, Army, 
Navy, Air Force and Missile Defense Agency) and NASA, has been formed 
to offer solid rocket motor industrial base sustainment recommendations 
to the Secretary of Defense for a subsequent report to Congress. The 
interim report to Congress is expected to be delivered in June 2010.
    Mr. Bishop. The proposed FY11 budget only allows for $44.2 million 
for Minuteman III warm line, of which $5 million is for unspecified 
government costs or overhead, leaving only about $39 million in this 
funding line which budget documents state are to produce only 3 motor 
sets. By contrast, the Navy funds a warm line effort for the D-5 
missile which produces 12 motor sets a year. Was the private Solid 
Rocket Motor (SRM) industrial base consulted by the Air Force about the 
minimum number of MM III motor sets required annually to maintain a 
viable warm line during formulation of the FY11 budget recommendation, 
and if so, what was their response to the Air Force?
    Secretary Donley. Industry was consulted during the FY11 budget 
formulation process. Initially industry stated the need for 12 per year 
and then revised the number to six motor sets per year to maintain a 
fully qualified and certified workforce to produce MM III booster sets.
    The number of booster motors identified in the Air Force budget 
documents is a conservative estimate. The final number will likely be 
more than three; but will not be defined until the contract 
negotiations are completed. Unlike the Navy, there is currently no 
anticipated Air Force requirement to replace operational MM III missile 
motors. An interagency task force, that includes representation from 
DOD (the Office of the Secretary of Defense, Army, Navy, Air Force and 
Missile Defense Agency) and NASA, has been formed to offer solid rocket 
motor industrial base sustainment recommendations to the Secretary of 
Defense for a subsequent report to Congress. The interim report to 
Congress is expected to be delivered in June 2010.
    Mr. Bishop. The proposed FY11 budget only allows for $44.2 million 
for Minuteman III warm line, of which $5 million is for unspecified 
government costs or overhead, leaving only about $39 million in this 
funding line which budget documents state are to produce only 3 motor 
sets. By contrast, the Navy funds a warm line effort for the D-5 
missile which produces 12 motor sets a year. What is the Air Force 
contingency plan for ensuring a viable MM III weapons system through 
2030 (the program of record) if the private SRM industrial base 
capability for the MM III is shuttered and its contract obligations 
with the Air Force are not renewed?
    Secretary Donley. If the current MM III Solid Rocket Motor 
production capability is allowed to lapse, any requirement for follow-
on MM III SRM production would include the time and costs required to 
reinstate a MM III SRM production capability. The Air Force, in 
coordination with industry, has determined what those costs and 
timelines would be and would include these factors in long-range 
planning efforts. Unlike the Navy, there is currently no anticipated 
Air Force requirement to replace operational MM III missile motors. An 
interagency task force, that includes representation from DOD (the 
Office of the Secretary of Defense, Army, Navy, Air Force and Missile 
Defense Agency) and NASA, has been formed to offer solid rocket motor 
industrial base sustainment recommendations to the Secretary of Defense 
for a subsequent report to Congress. The interim report to Congress is 
expected to be delivered in June 2010.
    Mr. Bishop. The proposed FY11 budget only allows for $44.2 million 
for Minuteman III warm line, of which $5 million is for unspecified 
government costs or overhead, leaving only about $39 million in this 
funding line which budget documents state are to produce only 3 motor 
sets. By contrast, the Navy funds a warm line effort for the D-5 
missile which produces 12 motor sets a year. A Department of Defense 
Report to Congress on the Solid Rocket Motor Industrial Base, dated 
June 2009, at page 47 stated that ``Delays in the NASA Ares program 
could have a significant negative impact on the large SRM (Solid Rocket 
Motor) prime contractor industrial base and on some of the SRM subtier 
base, specifically material suppliers.'' In light of NASA's FY11 more 
drastic budget recommendation to completely cancel the Constellation 
program, along with the Ares 1 and Ares 5 boosters, should not the 
above-referenced study be revised and updated?
    Secretary Donley. Per direction in the National Defense 
Authorization Act for FY2010, the Secretary of Defense is to 
``establish a plan to sustain the solid rocket motor industrial base, 
including the ability to maintain and sustain currently deployed 
strategic and missile defense systems and to maintain an intellectual 
and engineering capacity to support next generation motors, as 
needed.'' An interagency task force, that includes representation from 
DOD (the Office of the Secretary of Defense, Army, Navy, Air Force and 
Missile Defense Agency) and NASA, has been formed to offer solid rocket 
motor industrial base sustainment recommendations to the Secretary of 
Defense for a subsequent report to Congress. The interim report to 
Congress is expected to be delivered in June 2010.
    Mr. Bishop. The proposed FY11 budget only allows for $44.2 million 
for Minuteman III warm line, of which $5 million is for unspecified 
government costs or overhead, leaving only about $39 million in this 
funding line which budget documents state are to produce only 3 motor 
sets. By contrast, the Navy funds a warm line effort for the D-5 
missile which produces 12 motor sets a year. What are the impediments 
preventing the Air Force from committing to a long-term Minuteman III 
sustainment program in the out-years, and isn't such a commitment more 
important than ever to sustain this vital strategic industrial base?
    Secretary Donley. The AF is fully committed to sustaining the MM 
III weapon system through 2030 and has budgeted over $1.3B of 
investments through the FYDP (FY10-FY15) to achieve that objective. 
Unlike the Navy, there is currently no anticipated Air Force 
requirement to replace operational MM III missile motors. An 
interagency task force, that includes representation from DOD (the 
Office of the Secretary of Defense, Army, Navy, Air Force and Missile 
Defense Agency) and NASA, has been formed to offer solid rocket motor 
industrial base sustainment recommendations to the Secretary of Defense 
for a subsequent report to Congress. The interim report to Congress is 
expected to be delivered in June 2010.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. The Pentagon put out a directive for the services to 
expand the acquisition corps by thousands of personnel. The Air Force 
appears to have aggressively executed this increase in acquisition 
professionals. Many organizations are converting contractor employees 
to government civilians. According to some observers, there may be a 
perception that some individuals are ``being coerced'' and pressured 
into leaving their contractor employers and switching to the civil 
service as government employees. Has the AF developed a plan for the 
conversion of transitioning contractor to government personnel? If 
policies have been codified, have procedures been developed on how to 
address contractors' concerns of hiring away their personnel to Air 
Force civilian positions?
    Secretary Donley. The Air Force has an overarching plan for 
transitioning certain functions or services currently performed by 
contractors to DOD civilian or military performance, or a combination 
thereof. The Air Force plan does not include specific policies or 
procedures to address contractor concerns regarding the hiring of 
contractor personnel.
    We acquire talent through open, fair, and competitive hiring 
processes, consistent with Merit Systems Principles. Because the Air 
Force has positioned itself as an employer of choice, engaged in a wide 
range of functions that represent desirable and meaningful work among 
jobseekers, we receive applications from a broad range of applicants, 
including employees of contractor companies. We are required to 
consider all applicants who meet the eligibility and qualification 
requirements for the positions we are seeking to fill, without regard 
to the organizations that employ them.
    We view our contractors as valued partners and greatly appreciate 
the talent and skill they bring to the mission. We respect the work 
relationship these companies have with their employees.
    Mr. Turner. During the hearing, I mentioned I would be submitting a 
letter (attached) in which the Air Force Chief of Staff assured Mr. 
Hobson and the community that ``If the Air Force receives funding to 
procure additional C-17s beyond the current 180, it is our intent to 
place C-17s at Wright-Patterson AFB to ensure a follow-on mission for 
the 445th Airlift Wing.'' Can you reaffirm the Air Force commitment to 
ensuring the continuation of the important mobility mission by 
eventually placing C-17s at the 445k Airlift Wing?
    General Schwartz. The review and evaluation of additional C-17 
basing candidates is nearing completion. Once complete, the Air Force 
will make the appropriate Congressional notifications and 
announcements.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS

    Mrs. McMorris Rodgers. As a Member who represents a KC-135 Air 
Refueling Tanker base, I see first hand the impacts the delayed tanker 
acquisition has on a community. The KC-135 represents a central piece 
of war plans to support the United States and its allies around the 
world. Like many, I want to see the new KC-X at the ramps at Fairchild 
Air Force Base sooner than later. I understand that we will finally be 
seeing the RFP come out this week. What type of timelines can we look 
forward to for this project?
    General Schwartz. The Air Force released the RFP on 24 February 
2010 with proposals due to the government on 10 May 2010. Contract 
award is planned for the fall of FY2010. After an approximately four-
year Engineering and Manufacturing Development phase, the USAF 
estimates the first seven production KC-X aircraft will be delivered in 
2015. Final decisions regarding the basing of KC-X are part of a 
separate process that will take place at a later date.
    Mrs. McMorris Rodgers. I proudly represent Fairchild Air Force Base 
and saw the surge of the operations tempo that has continued to be 
maintained at high levels. We are deploying our Airmen more frequently. 
The opts temp for our tanker crews right now is to deploy every 90 
days. We also have Airmen participating in Joint Expeditionary Taskings 
in support of other services. Over the years, the Air Force end 
strengths have been reduced significantly. Are you confident that a 
mere .15% person increase in the Air Force is sufficient to support the 
overall missions now and in the foreseeable future?
    General Schwartz. We believe the Air Force's proposed 332,200 AD 
end strength in the FY11 budget achieves the right balance between 
providing capabilities for today's commitments and posturing for future 
challenges, i.e. increasing demands for Intelligence, Surveillance & 
Reconnaissance operational capabilities; enhancing cyberspace, 
irregular warfare, command and control capabilities to win today's 
Joint fight; recapturing Acquisition Excellence; continuing to 
strengthen the Nuclear Enterprise; and developing and caring for our 
Airmen and their families.
    Mrs. McMorris Rodgers. As you both know, one of every ten Americans 
are out of work. We know that it is critical to focus our attention on 
creating new jobs in the United States. The KC-X tanker competition 
pits an American made airplane against a plane whose major assemblies 
will be manufactured in Europe. It seems we have a choice: creating 
tens of thousands of jobs here in the United States or sending those 
jobs overseas. When the President spoke of creating conditions 
necessary for business to expand and hire more workers, I think we all 
assumed he was referring to U.S. workers and U.S. jobs. If that is the 
case, why is this Administration considering sending the tens of 
thousands of tanker manufacturing jobs to Europe?
    General Schwartz. The USAF KC-X tanker solicitation is a full and 
open competition in the best interest of both the warfighter and 
taxpayer. Discussion of a KC-X contract award to any company is 
premature at this time. The Department will ensure the tanker 
solicitation remains wholly compliant with the current state of law, 
including the Buy America Act.
    Mrs. McMorris Rodgers. Wouldn't you agree that spouses relying on 
the Military Spouse Career Advancement Account (MyCAA) program to 
further their academic goals should have been notified prior to the 
temporary stay in order to make the necessary arrangements with their 
school.
    General Schwartz. The MyCAA program is administered, and monitored 
by OSD rather than the Services. It is not an Air Force controlled 
program. When the Air Force was unexpectedly notified on 16 February by 
staff from OSD(MC&FP) of a ``pause'' in the MyCAA spouse tuition 
assistance program, we provided notification to all installation Airman 
& Family Readiness Centers immediately. Air Force spouses were informed 
of other sources of financial assistance for education and training 
such as the Air Force Aid Society Spouse Tuition Assistance Program for 
those stationed overseas, the Hap Arnold Grants for stateside spouses 
and the Spouse Employment Program which can provide entry-level job 
training with a goal of finding immediate viable employment. We expect 
further guidance from OSD regarding program operations for spouses that 
are currently enrolled, as well as the long-term status of the program.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. My question is regarding the military humanitarian 
mission in Haiti. Can you comment as to whether or not the C-27, Joint 
Cargo Aircraft, have been used for the Haiti Humanitarian Relief 
Operations and in what capacity? If the aircraft has not been utilized, 
can you explain why this tactical asset has not been used to disperse 
needed supplies to regions outside the epicenter of Port-au-Prince? 
Additionally, I understand the total buy for the C-27 program is 38 
aircraft but that is the floor and not the ceiling. To that extent, and 
given the change in program leadership, what steps have been taken to 
work with the Army to develop a strategy on how to replace the Sherpa 
aircraft and to give missions to those units that have the Sherpa or 
who were previously slated to receive the C-27 aircraft in the Army?
    General Schwartz. No Air Force C-27Js were used in Haiti relief 
operations. As of today, the Department of Defense has taken ownership 
of three aircraft. These aircraft are undergoing testing and 
development. The first operational deployment for the C-27J has not yet 
been finalized. The Air Force does not currently plan to increase the 
number of C-27Js beyond the current 38 program of record.
    The Air Force intent is to support the Direct Support mission 
utilizing our entire airlift fleet, as required, to best meet Army 
demand. The Air Force is not actively engaged with the Army in 
determining the way forward for the C-23 fleet or for Army National 
Guard units affected by the transfer of the Direct Support mission to 
the Air Force.
    Ms. Bordallo. The recent QDR requires the Air Force to conduct a 
study on the Long Range Strike program and field a new long range 
strike bomber by 2018. However Secretary Gates stated in his recent 
testimony before the HASC that a new bomber might well be more than 15 
years away. Can you explain what the Air Force is doing to ensure we 
execute an efficient and timely study in order to move forward with the 
fielding of a New Bomber. Additionally, when can we expect the study to 
be completed. Finally, when do you foresee procurement of the new 
generation bomber taking place?
    General Schwartz. The Secretary of Defense (SECDEF) delayed the 
development of an Air Force follow-on bomber, which was directed in the 
2006 Quadrennial Defense Review (QDR), until the Department of Defense 
could better understand the need, requirement, and technology 
associated with the weapon system. Based upon the need for additional 
analysis, the SECDEF chartered a subsequent study to examine a broad 
array of long-range strike issues and options, including: the 
appropriate mix of long range strike capabilities, upgrades to legacy 
bombers, manned and unmanned force structure numbers, stand-off and 
penetrating platform ratio, stand-off cruise missile requirements, 
Intelligence, Surveillance, and Reconnaissance (ISR) demands and 
conventional Prompt Global Strike needs. The results of the study are 
scheduled to be completed in the fall of 2010. This study will inform 
subsequent Departmental decisions on new bomber procurement.
    Ms. Bordallo. Our current strategic focus is on counter-insurgency 
operations that rely on precision strikes from aircraft on a daily 
basis, which require less of a bomb payload. In a major regional 
conflict on the order of a Desert Storm or Allied Force or the initial 
phases of Iraqi Freedom we dropped a significant payload every day. Do 
you believe we have seen our last major regional conflict? If not, In 
your opinion, will we need the ability to do that in the future? 
Although the QDR tries to strike a balance across the spectrum of 
warfare, I'm deeply concerned that we're too focused on the current 
counter insurgency conflict we're fighting and not looking enough at 
the ways we can deter future regional conflicts that require a stealthy 
long range strike capability. Isn't a next generation bomber needed to 
better address our deterrence capability in future conflicts?
    General Schwartz. The Air Force must be fully prepared to respond 
to our Combatant Commanders in support of operations that span the full 
spectrum of conflict from counter-insurgency to large scale 
conventional campaigns while still maintaining a credible nuclear 
deterrence posture. A long-range strike aircraft is one element of our 
future strike capability which also strengthens our strategic 
deterrence posture. While investments in our legacy bombers sustain our 
nuclear deterrence operations and conventional global precision attack 
capabilities into the future, the Air Force has also programmed 
research and development funds to accelerate development of an enhanced 
long-range strike capability to counter the anti-access and area denial 
strategies of our adversaries.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. In your testimony, you stated that you would verify my 
numbers and get back to me on the funding for Operationally Responsive 
Space (ORS). The funding from FY09 to FY11 has undergone a 59% cut with 
the cut from FY10 to FY11 being 24% (FY09-228.5 million; FY10-124.3 
million; FY11-94.0 million). This trend does not indicate that it is a 
top priority as you implied when speaking about the space budget in 
general. My question pertains directly to ORS and how in an era of ever 
increasing demand and looming enemy threat that we reduce a program by 
59% that is intended to provide Joint Force Commanders with surge space 
capacity and the ability to replenish should our enemies attack our 
space assets. Please provide specifics on ORS initiatives and explain 
the specific cuts in funding.
    Secretary Donley. The Operationally Responsive Space (ORS) 
initiatives include completing and launching ORS-1, and continuing the 
critical payload, bus, launch, range, and command and control enablers 
necessary to make ORS successful. These enablers include the Modular 
Space Vehicle (MSV) and the Rapid Response Space Works (RRSW). The MSV 
effort supports the design and development of mission kits (modular 
payloads and buses) and the RRSW procurement develops the facilities, 
capability, and Concept of Operations for rapid assembly, integration, 
and testing of tailored ORS systems.
    The budget has been relatively stable for ORS funding. It is 
approximately $100M per fiscal year from FY09 to FY11 with some 
exceptions for launch vehicle expenditures, ORS-1 and congressional 
adds. The FY09 funding is $135M higher than FY11 due to three reasons. 
The Air Force reprogrammed $39M into ORS when ORS-1 was initiated as an 
urgent need in FY09. The FY09 funding line contains $9M for TacSat 
launch vehicle expenditures while FY11 doesn't require any TacSat 
launch vehicle funding. Additionally, the original FY09 request was 
increased by $87M for congressional adds (Infrared Sensor Payload 
Development, Micro-Satellite Serial Manufacturing, LEONIDAS, Chip Scale 
Atomic Clock, and Missile Range Safety Technology).
    The ORS funding in FY10 is approximately $30M higher than FY11 due 
primarily to the FY10 funding line containing $18M for TacSat launch 
vehicle expenditures, while FY11 doesn't require any TacSat launch 
vehicle funding. Additionally, the original FY10 request was increased 
by $12M for congressional adds (Micro-Satellite Serial Manufacturing, 
LEONIDAS, Rapid Small Satellite Development Test Facilities and Space 
Sensor Data Link Technology).
    Mr. Lamborn. In your testimony, you stated that the requirement for 
fighters had changed from 2200 to 2024. What specific factors drove 
this lower number? Is the lower number based on the near term (5-year) 
or the longer (15-20 year) look?
    General Schwartz. The lower number of approximately 2000 Total 
Active Inventory (TAI) reflects the most current Air Force assessment 
of the required fighter force structure to meet National Defense 
Strategy objectives through the mid 2020's. The change in the fighter 
force structure shortfall was caused by three factors. First, the Air 
Force elected to accept a moderate level of warfighting risk. Second 
the F-35 planned procurement rate was increased from 48 to 80 aircraft 
per year, bringing 5th generation to the field sooner. Third, the 
approach to fighter service life computations was refined.
    Mr. Lamborn. In your testimony, you stated that the initial fighter 
gap numbers were based on a yearly production rate of 48 for the F-35, 
but now you anticipate a production rate of 80. With the program 
continuing to sup to the right, what specific change has moved us from 
the 48 number to 80? Why were we not looking at 80 to start with? If 
the program continues to slip will we see a continuous rise in these 
production estimates to mask the fighter gap? When will slips become so 
critical that we cannot simply up annual production to close the 
fighter gap and what specific other actions are you taking to minimize 
risk should the annual number of 80 prove unattainable?
    General Schwartz. A yearly production rate of 48 F-35A was 
programmed in the FY08 PB based on to fiscal considerations. Production 
was increased from 48 to 80 F-35A aircraft per year in the FY11 PB 
commensurate with an Independent Manufacturing Review Team (IMRT) 
review confirming the feasibility of increasing the production ramp-up 
to 80 F-35A a year.
    The Air Force is also closely monitoring fighter capability and 
capacity shortfalls; conducting full scale fatigue tests (FSFT) on the 
F-15C, and starting a FSFT on the F-16 Block 50 in FY11. These tests 
will increase the accuracy of determining the remaining service life of 
these aircraft, continue to inform service life extension programs 
(SLEP), and define when needed SLEP entails maintaining operational 
viability through capability and structural upgrades. This option for 
the F-16 Block 40-52 aircraft provides essentially the same capability 
as new ``4.5 Generation'' fighters at 10 to 15 percent of the cost. 
SLEP programs for current fighters and aggressive F-35 program 
management will be essential to maintain fighter capability and will be 
reviewed as part of the FY12 budget process.
    Mr. Lamborn. In your testimony, you stated that the initial fighter 
gap numbers were based on a yearly production rate of 48 for the F-35, 
but now you anticipate a production rate of 80. You also mentioned that 
given these new numbers, a ceiling lowering from 2200 to 2024 aircraft 
and 48/yr growing to 80/yr, that the total fighter gap would only be 
200 aircraft which was ``within the realm of the manageable depending 
on what we do to renovate existing airplanes.'' What are your specific 
plans for renovating existing airplanes? Which aircraft are designated 
to receive service life extensions or other modernizations to help make 
sure that the fighter remains in the realm of the manageable? Is the 
money for these upgrades in the existing President's Budget proposal? 
If so, how much by aircraft/upgrade?
    General Schwartz. The AF will continue to modernize and sustain 
legacy fighter aircraft as part of an active force management plan. 
Modernization plans include upgrades to Active Electronically Scanned 
Array (AESA) radars, integration of advanced weapons, development of 
infrared search and track capability, and digital data links to support 
communications and navigation. Specifically for individual platforms:
    A-10 modernization programs include Precision Engagement which 
integrates smart weapons and advanced targeting pods; adds color 
displays, moving map, and Hands-on Throttle and Stick (HOTAS); improves 
mission effectiveness through rapid target acquisition and 
identification. Installations will complete in FY11 at a total program 
cost of $388M. Digital Data Link adds Situational Awareness Data Link 
radios across fleet. These installations will complete in FY10 at a 
total program cost of $55.1M. Mode S/5 will meet international Air 
Traffic Management standards and provide enhanced Identification Friend 
or Foe (IFF) capability. These installations will complete in FY13 at a 
total program cost of $40.1M. Extended Duration Covert Infrared 
Countermeasures System which automates identification of infrared 
surface-to-air threats and dispensing of countermeasures are funded 
within the FY11 OCO, with installations completing in FY12 at a total 
program cost of $63.7M.
    A-10 life extension programs include Service Life Extension Program 
(SLEP) which is scheduled after 8,000 flying hours and provides 
detailed structural evaluation and repair. It also includes Scheduled 
Structural Inspection (SSI) which follows SLEP at 2,000 flying-hour 
intervals as well as the Wing Replacement Program (WRP) that replaces 
233 thin-skin wings with redesigned thick-skin wing incorporating a 
number of structural improvements. Thin-skin wings will be replaced 
during SLEP/SSI, starting in 4th Qtr FY10 with installations (funded 
with Operation and Maintenance dollars) complete in FY16 at a total 
program cost of $1.2B.
    F-16 modernization programs include integration of new precision 
weapons, advanced targeting pods, and improved avionics. It is included 
in the FY11 PB request at $84.5M (RDT&E). $31.7M for Falcon STAR (APAF) 
to bring life-limiting components to the planned service life of 8,000 
equivalent flight hours and $20M (RDT&E) to initiate a full scale 
fatigue test to scope the additional modifications required to extend 
the life of the newer F-16s (Blocks 40-52) beyond their design life of 
8,000 equivalent flight hours. Funding to complete the full scale 
fatigue test and to do other F-16 upgrades will be addressed in future 
budgets.
    The F-15 has funded upgrade programs to address both operational 
effectiveness and sustainment. Both F-15C/D and F-15E have existing 
programs that will replace legacy mechanically-scanned radars with 
Active Electronically Scanned Array (AESA) radars. AESA radars provide 
a significant improvement in reliability and maintainability while 
giving the aircraft a radar that has greater power, range and 
versatility. Also, both F-15C/D and F-15E are receiving an upgraded 
computer to allow the aircraft to use the full capabilities of the new 
radars. All four of these programs will extend past the Fiscal Year 
Defense Plan (FYDP), but the estimated costs are: F-15C/D AESA radar 
$1.5B, F-15C/D computer $180M, F-15E AESA radar $2.5B, and F-15E 
computer $165M.
    Other modernization upgrades include a new Infrared Search and 
Track (IRST) sensor, under development, for the F-15C/D to provide 
target tracking and engagement data to supplement the radar for an 
estimated $400M; satellite communications for both F-15 C/D and F-15E 
for an estimated $65M and $60M, respectively. Also new solid state data 
recorders are replacing old magnetic tape recorders for approximately 
$56M.
    Sustainment upgrades are critical, especially given the extended 
service life expected of the F-15. Each aircraft undergoes Programmed 
Depot Maintenance in which the aircraft are periodically fully 
inspected for wear-related damage. Additionally, the Air Force has just 
started a full scale teardown, and a full scale fatigue test of the F-
15C. These tests will provide data needed to plan the sustainment of 
the aircraft in the future. The F-15E is scheduled to start these 
efforts as soon as they are completed on the F-15C/D.
    Mr. Lamborn. In your testimony regarding Operational Responsive 
Space (ORS), you stated that another approach to space resilience is 
``being able to discern whether our platforms on orbit are at risk or 
are being threatened.'' I am glad to see these Space Situational 
Awareness initiatives have received a plus up in funding, but at the 
same time our defensive and offensive programs to respond to these 
threats, our space control programs, received a 40% decrease from FY10 
funding (206.1 million down to 124.0 million). My concern is that we 
will know we are being attacked, but due to these cuts, we will be 
unable to react. Were the cuts in the space control budget primarily to 
offensive or defensive capabilities? Which programs were cut and what 
was the reasoning behind the cuts?
    General Schwartz. The space domain is becoming more congested and 
contested, which is why it is increasingly important to focus on 
developing a more capable Space Situational Awareness (SSA) capability 
with decision support tools, the foundation for all space control 
activities. These SSA and decision support capabilities will allow us 
to evaluate threats and take appropriate actions. Space control 
capabilities are a valuable element of our space portfolio. The 
reduction in funding from $92.1M in FY10 to $65.9M in FY11 was planned 
primarily due to the Rapid Attack Identification and Reporting System 
transitioning from development to the sustainment/enhancement phase and 
the Counter Communications System conducting a pre-planned product 
improvement incremental improvement vice a new development effort.
    Mr. Lamborn. The Army's procurement request includes $506.31 
million to buy 26 MQ-1 Predator UAVs. I understand the vital role UAVs 
play in the current fight and our national defense. I also know that 
the U.S. Army currently fields and flies many smaller UAVs, but the 
United States Air Force has been the DOD lead in Predator operations. 
Was the Air Force consulted in the Army's Predator procurement plan? 
Will these Predators offset the number of CAPs the Air Force has been 
tasked to produce (50 in FY10 and 65 by FY11)?
    General Schwartz. The Air Force was generally aware of the Army's 
plan to procure the MQ-1 to address their organic Service needs, but 
was not ``consulted'' directly. The Air Force program will not be 
offset by the Army procurement. The Air Force has been tasked and is on 
track to provide 50 MQ-1/9 CAPs by the end of FY11 and 65 by the end of 
FY13.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BRIGHT

    Mr. Bright. Secretary Donley: Several years ago, the Air Force 
established the Application Software Assurance Center of Excellence 
(ASACoE) at Maxwell AFB--Gunter Annex in Montgomery, Alabama. I have 
toured the facility and been briefed on the Center's activities. I 
greatly value the work they are doing to provide application-level 
security to protect us from cyber attacks. As such, I have several 
questions related to the Center's mission, operation and funding. 1) 
Can you explain the goals and objectives of the Center and how you plan 
to achieve those goals and objectives? 2) My understanding is that a 
major focus of the Center's mission has been to develop application-
level security best practices that can be put in place Air Force-wide. 
Does this remain a primary focus? 3) What progress has been made 
towards reaching this objective? 4) As the Center has been in operation 
since 2007, can you tell me what are some of the more significant 
findings that have come from the work at the Center? 5) Can you also 
explain how the Center will be aligned within the structure of the new 
Cyber Security Command that was recently stood up? 6) What is the long 
term plan for providing manpower and funding to complete the Center's 
mission? 7) Also with respect to funding, could you tell me how much 
funding is included in the FY2011 President's Budget to operate the 
Center and conduct the evaluations? 8) Moreover, at this funding level, 
how many applications will you be able to evaluate? 9) Finally, if you 
had additional resources, would you be able to move faster in 
evaluating the applications?
    Secretary Donley. 1) The Application Software Assurance Center of 
Excellence (ASACoE) was established to help promote and assess software 
assurance (SwA) in the Air Force. The goals and objectives of ASACoE 
are to: partner with application development program offices to 
identify SwA issues and mitigations; foster SwA knowledge; support SwA 
as part of certification and accreditation; establish a framework to 
support the acquisition and development of assured software products 
and assist governing bodies with developing SwA policy. ASACoE has been 
evolving to achieve these goals and objectives over the last 2 years. 
Our current model utilizes SwA training and education, automated SwA 
tools and licensing, on-site SwA assessments, and follow-on support.
    2) Yes, the primary objective of the ASACoE remains to improve upon 
the assurance of combat and mission support applications and their 
underlying data.
    3) To date, ASACoE has partnered with over 120 separate program 
management offices (PMOs) providing SwA training and evaluation for 
over 500 applications. This resulted in identifying approx 3.5 million 
software vulnerabilities and gave the PMOs the training and tools 
needed to fix those current vulnerabilities and prevent future 
vulnerabilities.
    4) ASACoE focused on the most vulnerable systems and applications, 
which are web-based. Additionally, the ASACoE has, aided with the 
security of our more secure, critical systems, such as the embedded 
systems of our weapons arsenal and classified systems of our strategic 
and intelligence forces. The ASACoE found every application assessed 
has software vulnerabilities, with 99% of the applications assessed 
having what we categorize as critical vulnerabilities. A critical 
vulnerability is one that would allow a potential hacker to gain 
elevated access to the application and/or its data. The top three 
vulnerabilities found in Air Force applications are: cross-site 
scripting, SQL injection, and trust boundary violation (excessive 
privilege). The data suggests that the Department of Defense must focus 
on securing the work of the net (applications and data structures) in 
addition to the network itself. Our ASACoE effort was listed as an OSD 
best practice in the ``Report on Trusted Defense Systems'' prepared by 
USD(AT&L) and ASD(NII)/DOD CIO submitted to Congress in September 2009.
    5) Currently the ASACoE continues to be aligned under Air Force 
Materiel Command. Any future re-alignment has not been determined.
    6) Currently, the Air Force is evaluating the best way to provide 
SwA. This includes evaluating the most cost effective and qualitative 
way to ensure that SwA is performed on all existing and future 
applications. This includes evaluating whether to centrally perform SwA 
evaluation or require it to be performed by each application owner and 
developer.
    7) There is currently no FY2011 funding identified. ASACoE has been 
operating from unfunded requests. There are currently efforts being 
made to secure funding for ASACoE if it is the most cost effective and 
qualitative solution for SwA.
    8) No FY2011 funding is identified. The Air Force is evaluating the 
best way to provide SwA.
    9) The ASACoE is conducting market research to develop a 
streamlined concept of operations that would allow the Air Force to 
assess the approximately 3,000-5,000 web applications in existence 
today. In this revised concept, the team is reviewing the use/
development of a web-based portal to upload source code to allow the 
completion of a rapid triage assessment for these applications within a 
10-16 month period. This could allow expansion to potentially enhance 
quick scan capabilities, improve prioritization for services, and 
improve the training curriculum.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
